1a
APPENDIX A
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
VIRNETX INC., LEIDOS, INC.,
Plaintiffs-Appellees
v.
CISCO SYSTEMS, INC.,
Defendant
APPLE INC.,
Defendant-Appellant
2018-1197
Appeal from the United States District Court for
the Eastern District of Texas in No. 6:10-cv-00417RWS, Judge Robert Schroeder, III.
JUDGMENT
JEFFREY A. LAMKEN, MoloLamken LLP, Washington, DC, argued for all plaintiffs-appellees. Plaintiffappellee VirnetX Inc. also represented by JAMES A.
BARTA, RAYINER HASHEM, MICHAEL GREGORY PATTILLO, JR.; ALLISON MILEO GORSUCH, New York, NY;

2a
BRADLEY WAYNE CALDWELL, JASON DODD CASSADY,
JOHN AUSTIN CURRY, Caldwell Cassady & Curry, Dallas, TX.
DONALD SANTOS URRABAZO, Urrabazo Law, P.C.,
Los Angeles, CA, for plaintiff-appellee Leidos, Inc.
Also represented by ANDY TINDEL, Mann, Tindel &
Thompson, Tyler, TX.
WILLIAM F. LEE, Wilmer Cutler Pickering Hale
and Dorr LLP, Boston, MA, argued for defendant-appellant. Also represented by REBECCA A. BACT, MARK
CHRISTOPHER FLEMING, LAUREN B. FLETCHER;
THOMAS GREGORY SPRANKLING, Palo Alto, CA; BRITTANY BLUEITT AMADI, Washington, DC.
THIS CAUSE having been heard and considered, it is
ORDERED and ADJUDGED:
PER CURIAM (PROST, Chief Judge, MOORE and
REYNA, Circuit Judges).
AFFIRMED. See Fed. Cir. R. 36.
ENTERED BY ORDER OF THE COURT
January 15, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

3a
APPENDIX B
In the United States District Court for the
Eastern District of Texas Tyler Division
VIRNETX INC. and
SCIENCE
APPLICATIONS
INTERNATIONAL
CORPORATION,

§
§
§
§
§
§
Plaintiffs,
§ CAUSE NO. 6:10-CV-417
§
vs.
§
SEALED
§
APPLE INC.,
§
UNSEALED 10-13-2017
§
Defendant.
§
§
MEMORANDUM OPINION AND ORDER

4a
Before the Court are the following motions:
 Defendant Apple Inc.’s (“Apple”) Rule 50(a)
Motion for Judgment as a Matter of Law on
Damages (Docket No. 1018);1
 Apple’s Rule 50(a) Motion for Judgment as a
Matter of Law of No Infringement (Docket
No. 1019);
 Plaintiff VirnetX, Inc.’s (“VirnetX”) Post-Trial
Brief Regarding Willfulness (Docket No. 1047);
 Apple’s Omnibus Motion for Judgment as a
Matter of Law Under Rule 50(b) (Docket
No. 1062); and
 VirnetX’s Motion for Entry of Judgment and
Equitable Relief (Docket No. 1063).
Having considered the parties’ written submissions and argument at the November 22, 2016
post-trial hearing, and for the reasons stated
below, the Court rules as follows:
 Apple’s Rule 50(a) Motion for Judgment as a
Matter of Law on Damages (Docket No. 1018)
is DENIED-AS-MOOT;

Unless noted otherwise, all references to the docket refer to
Case No. 6:10-cv-417.

1

5a
 Apple’s Rule 50(a) Motion for Judgment as a
Matter of Law of No Infringement (Docket
No. 1019) is DENIED-AS-MOOT;
 VirnetX’s request in its Post-Trial Brief Regarding Willfulness that the Court find that
willful infringement (Docket No. 1047) is
GRANTED;
 Apple’s Omnibus Motion for Judgment as a
Matter of Law Under Rule 50(b) (Docket
No. 1062) is DENIED; and
 VirnetX’s Motion for Entry of Judgment and
Equitable Relief (Docket No. 1063) is
GRANTED.
BACKGROUND
On August 11, 2010, VirnetX filed this action
against Apple alleging that Apple infringed U.S. Patent Nos. 6,502,135 (“the ’135 Patent”), 7,418,504
(“the ’504 Patent”), 7,490,151 (“the ’151 Patent”), and
7,921,211 (“the ’211 Patent”) (collectively, “the asserted patents”). The ’135 and ’151 Patents generally
describe a method of transparently creating a virtual
private network (“VPN”) between a client computer
and a target computer, while the ’504 and ’211 Patents disclose a secure domain name service. On November 6, 2012, a jury found that Apple’s accused
VPN on Demand and FaceTime features infringed the
asserted patents and that the asserted patents were
not invalid (“2012 jury verdict”). Docket No. 790.

6a
Apple appealed the 2012 verdict to the Federal
Circuit on multiple grounds. See VirnetX, Inc. v. Cisco
Sys., Inc., 767 F.3d 1308, 1313-14 (Fed. Cir. 2014).
The Federal Circuit affirmed the jury’s finding of infringement by VPN on Demand and affirmed this
Court’s denial of Apple’s motion for judgment as a
matter of law on invalidity. Id. The Federal Circuit
reversed the Court’s claim construction, holding that
the term “secure communication link” requires both
“security and anonymity” and vacated the infringement finding for FaceTime. Id. The Federal Circuit
also vacated the damages award for both VPN on Demand and FaceTime because it found that the jury relied on a flawed damages model. Id. at 1314.
On remand, this case was consolidated with Case
No. 6:12-cv-855 and retried between January 25 and
February 2, 2016. Docket No. 425 in Case No. 6:12-cv855. Because of the consolidation and repeated references to the prior jury’s verdict in front of the jury, the
Court granted a new trial and unconsolidated the
cases. Docket No. 500 in Case No. 6:12-cv-855. The
Court conducted another jury trial September 26 to
30, 2016 on infringement for FaceTime and damages
for both FaceTime and VPN on Demand.
At trial, VirnetX asserted that FaceTime met the
“anonymity” requirement of the “secure communication link” limitation by allowing participants to communicate behind third-party network address translators (“NATs”). Docket No. 1036 (“Trial Tr. 9/30/16
PM”) at 37:17–40:41. VirnetX’s technical expert, Dr.
Mark Jones, testified that NATs hide the private IP
addresses of the persons or devices participating in a

7a
FaceTime call and therefore prevent eavesdroppers
on the public internet from being able to correlate specific persons or devices behind the NAT routers participating in the call. Docket No. 1030 (“Trial Tr.
9/27/16 AM”) at 48:10-51:18. VirnetX further asserted
that it was entitled to a reasonable royalty of $1.20
per unit, for a total of $302,427,950, for the infringement of its patents by FaceTime and VPN on Demand.2 Trial Tr. 9/30/16 PM at 50:16-20. VirnetX’s
damages expert, Roy Weinstein, testified that, based
on his analysis of comparable licenses, a reasonable
royalty for Apple to pay for use of the asserted patents
would be between $1.20 and $1.67 per unit. Docket
No. 1032 (“Trial Tr. 9/28/16 PM”) at 7:15-11:25.
Apple denied that FaceTime met the “anonymity”
requirement of the “secure communication link” limitation. Trial Tr. 9/30/16 PM at 53:8-15. Apple’s technical expert, Dr. Matthew Blaze, testified that
FaceTime is not anonymous because eavesdroppers
are able to obtain the public IP addresses of the devices participating in a FaceTime call. Docket
No. 1035 (“Trial Tr. 9/30/16 AM”) at 20:20-21:1,
114:17-21. Dr. Blaze further testified that the private
IP addresses hidden by the NATs do not provide any
meaningful anonymity. Trial Tr. 9/30/16 AM at
68:10-69:8. Apple also asserted that, based on an
analysis of the comparable licenses by its damages expert, Christopher Bakewell, VirnetX was entitled to a
royalty rate of no more than $0.10 per unit, for a total
of $25,202,329, for the infringement of VPN on
The jury was instructed that infringement by VPN on Demand
was previously determined. Docket No 1021 at 4.

2

8a
Demand and FaceTime. Docket No. 1033 (“Trial Tr.
9/29/16 AM”) 63:11-16, 115:2-20.
On September 30, 2016, the jury returned a unanimous verdict. The jury found that FaceTime infringed the ’211 and ’504 patents and awarded
$302,427,950 in damages for the collective infringement by the VPN on Demand and FaceTime features
in the accused Apple products. Docket No. 1025.
I. APPLE’S OMNIBUS MOTION FOR JUDGMENT AS A MATTER OF LAW UNDER
RULE 50(b) AND FOR A NEW TRIAL
Apple moves for judgment as a matter of law, or,
alternatively, for a new trial, on non- infringement
and damages. Docket No 1062 at 1. During the September 2016 trial, Apple filed two Rule 50(a) motions
before the case was submitted to the jury. Docket
No. 1018; Docket No. 1019. In light of Apple’s
Rule 50(b) motions, Apple’s Rule 50(a) motions
(Docket Nos. 1018 and 1019) are DENIED-ASMOOT. The Court therefore turns to Apple’s
Rule 50(b) Motion for Judgment as a Matter of Law
and for a New Trial (Docket No. 1062).
A. Applicable Law Regarding Rule 50
Judgment as a matter of law is only appropriate
when “a reasonable jury would not have a legally sufficient evidentiary basis to find for the party on that
issue.” FED. R. CIV. P. 50(a). “The grant or denial of a
motion for judgment as a matter of law is a procedural
issue not unique to patent law, reviewed under the
law of the regional circuit in which the appeal from

9a
the district court would usually lie.” Finisar Corp. v.
DirecTV Group, Inc., 523 F.3d 1323, 1332 (Fed. Cir.
2008). The Fifth Circuit “uses the same standard to
review the verdict that the district court used in first
passing on the motion.” Hiltgen v. Sumrall, 47 F.3d
695, 699 (5th Cir. 1995). Thus, a jury verdict must be
upheld, and judgment as a matter of law may not be
granted, unless “there is no legally sufficient evidentiary basis for a reasonable jury to find as the jury
did.” Id. at 700. “A jury verdict must stand unless
there is a lack of substantial evidence, in the light
most favorable to the successful party, to support the
verdict.” Am. Home Assurance Co. v. United Space Alliance, 378 F.3d 482, 487 (5th Cir. 2004).
A court reviews all evidence in the record and
must draw all reasonable inferences in favor of the
nonmoving party; however, a court may not make
credibility determinations or weigh the evidence, as
those are solely functions of the jury. See Reeves v.
Sanderson Plumbing Prods., Inc., 530 U.S. 133,
150-51 (2000) (“[A]lthough the court should review
the record as a whole, it must disregard all evidence
favorable to the moving party that the jury is not required to believe”). Under Fifth Circuit law, a court is
to be “especially deferential” to a jury’s verdict, and
must not reverse the jury’s findings unless they are
not supported by substantial evidence. Baisden v. I’m
Ready Productions, Inc., 693 F.3d 491, 499 (5th Cir.
2012). Consequently, “[o]nly if there existed substantial evidence that would have led reasonable jurors to
reach a differing conclusion, will this court overturn
the district court’s judgment.” Hawkins v. Jones, 74
F. App’x. 391, 394 (5th Cir. 2003) (citing Portis v. First

10a
Nat’l Bank of New Albany, Miss., 34 F.3d 325, 327-28
(5th Cir. 1994)).
B. Applicable Law Regarding Rule 59
Under Federal Rule of Civil Procedure 59(a), a
new trial may be granted on any or all issues “for any
reason for which a new trial has heretofore been
granted in an action at law in federal court.”
Rule 59(a)(1)(A). The Federal Circuit reviews the
question of a new trial under the law of the regional
circuit. Z4 Techs., Inc. v. Microsoft Corp., 507 F.3d
1340, 1347 (Fed. Cir. 2007). “A new trial may be
granted, for example, if the district court finds the
verdict is against the weight of the evidence, the damages awarded are excessive, the trial was unfair, or
prejudicial error was committed in its course.” Smith
v. Transworld Drilling Co., 733 F.2d 610, 612-13 (5th
Cir. 1985). “A motion for a new trial should not be
granted unless the verdict is against the great weight
of the evidence, not merely against the preponderance
of the evidence.” Dresser-Rand Co. v. Virtual Automation Inc., 361 F.3d 831, 838-39 (5th Cir. 2004).
C. Analysis
Apple raises four main issues in its omnibus posttrial motion: (1) whether the evidence supports the
jury’s finding of infringement; (2) whether the evidence supports the jury’s damages award; (3) whether
Apple is entitled to a new trial on infringement; and
(4) whether Apple is entitled to a new trial on damages. See generally Docket No. 1062.

11a
1. Judgment as a Matter of Law of Noninfringement
Apple seeks judgment as a matter of law of noninfringement, arguing that no reasonable jury could
conclude that FaceTime’s peer-to-peer connection provides the anonymity required by the Federal Circuit’s
construction of “secure communication link.” Docket
No. 1062 at 3. Apple also argues that VirnetX’s comparison of FaceTime to VPN on Demand was improper and cannot provide substantial evidence of infringement. Id. at 7. Finally, Apple contends that
FaceTime’s call-setup process and its dynamically
changing IP addresses are irrelevant to whether
FaceTime provides anonymity. Id.
a. Applicable Law
Infringement is a question of fact reviewed for
substantial evidence. Finisar, 523 F.3d at 1332. To
prove infringement under 35 U.S.C. § 271, a plaintiff
must show the presence of every element, or its equivalent, in the accused product or service. Lemelson v.
United States, 752 F.2d 1538, 1551 (Fed. Cir. 1985).
First, the claim must be construed to determine its
scope and meaning; and second, the construed claim
must be compared to the accused device or service.
Absolute Software, Inc. v. Stealth Signal, Inc., 659
F.3d 1121, 1129 (Fed. Cir. 2011) (citing Carroll Touch,
Inc. v. Electro Mech. Sys., Inc., 15 F.3d 1573, 1576
(Fed. Cir. 1993)).

12a
b. Discussion
Apple contends that the evidence does not support
a finding that FaceTime’s peer-to-peer connection
provides anonymity. Id. at 3. Apple argues that it was
undisputed that FaceTime itself does nothing to conceal IP addresses on the connection. Id. Apple states
that FaceTime can work with NATs but argues that,
because NATs are not part of FaceTime and because
FaceTime does not require the use of NATs, VirnetX’s
infringement should fail as a matter of law. Id.
Apple further argues that there is no evidence to
support a finding that NATs provide anonymity. Id.
Apple contends that because NATs were a widespread
and basic component of the internet prior to the invention, NATs could not provide this anonymity,
which the Federal Circuit stated is “one of the primary inventive contributions of the patent.” Id. at 4
(quoting VirnetX, 767 F.3d at 1317). Apple states that
Dr. Robert Short, the inventor, admitted this at trial
by identifying NATs as a prior art system and stating
that a figure in the patent that included NATs was
not the way that he achieved anonymity. Id. (citing
Trial Tr. 9/27/16 AM at 74:25-75:3).
Apple contends that VirnetX’s infringement expert, Dr. Jones, admitted that NATs do not hide public IP addresses and conceded that, though NATs hide
private IP addresses, these private addresses do not
contain any identifying significance. Id. at 5 (citing
Docket No. 1030 (“Trial Tr. 9/27/16 PM”) at
48:22-49:1, 49:9-15, 123:24-124:3. Apple argues that,
because NATs cannot hide public IP addresses, they
are unable to prevent eavesdroppers from learning

13a
which websites companies are visiting, which Apple
describes as “the one exemplary goal of anonymity
provided in the patent.” Id. at 6. Finally, Apple states
that Dr. Jones admitted that callers’ private IP addresses are visible over the peer-to-peer connection.
Id.
Apple argues that VirnetX improperly relied on a
comparison between FaceTime and VPN on Demand
in order to prove infringement. Id. at 7. Apple contends that it is legally improper to compare products
for infringement purposes. Id. (citing Amstar Corp. v.
Envirotech Corp., 730 F.2d 1476, 1481-82 (Fed. Cir.
1984)). Apple further states that the record was void
of evidence as to why the previous jury found VPN on
Demand to be anonymous and that the undisputed evidence at trial shows that VPN on Demand contained
attributes of anonymity not present in FaceTime. Id.
Finally, Apple contends that Dr. Jones’s testimony regarding FaceTime’s call-setup process and dynamically changing IP addresses is irrelevant to the
question of whether FaceTime is anonymous and
therefore cannot support a finding of infringement.
Id. Apple argues that the setup of the call is protected
using an encrypted connection over the FaceTime
servers and therefore cannot provide the anonymity
required by the patents, which, Apple argues, require
the secure communication link—identified by Dr.
Jones as the separate peer-to-peer connection—to
provide the anonymity. Id. at 7-8. Apple similarly contends that dynamically changing IP addresses cannot
provide the required anonymity because the changing
of an IP address is dependent on the policy of the

14a
internet service provider and therefore is not “provided” by the direct communication link. Id. at 8.
VirnetX responds that Apple’s motion for judgment as a matter of law on non-infringement should
be denied because the evidence presented at trial
proved that “FaceTime Servers ‘support establishing’
a ‘direct communication link that provides data security and anonymity,’ “ as required by the patents.
Docket No. 1065 at 1. VirnetX argues that the testimony of Dr. Jones that an Internet eavesdropper cannot correlate the specific persons or devices located
behind NAT routers that are participating in a
FaceTime call, along with the admission of Apple’s expert, Dr. Blaze, that this inability to correlate constitutes a kind of anonymity, provides substantial evidence to support the jury’s verdict. Id. (citing Trial Tr.
9/27/16 PM at 48:10-51:18; Trial Tr. 9/30/16 AM at
124:4-5).
VirnetX argues that, because Apple’s expert admitted that NATs provide a type of anonymity, Apple
is attempting to impose additional requirements to
the Federal Circuit’s claim construction. Id. at 2. VirnetX contends that Apple has waived any claim construction arguments by raising them for the first time
after trial and argues that these arguments fail on the
merits regardless. Id.
VirnetX states that Apple’s argument that NATs
cannot provide the required anonymity because they
were present in the prior art is not legally relevant
because Apple cannot prove non- infringement by
comparing the accused system to the prior art. Id. at
3 (citing Zenith Elecs. Corp. v. PDI Commc’n Sys.,

15a
Inc., 522 F.3d 1348, 1363 (Fed. Cir. 2008)). VirnetX
next argues that even if the private IP addresses,
which the NATs protect, tell an eavesdropper nothing
about the particular device in communication, this
address is a critical piece of information necessary to
correlate the communication to a specific machine or
person. Id. at 4 (citing Trial Tr. 9/27/16 PM at
50:9-18). VirnetX therefore argues that the NATs’
protection of the private IP addresses is sufficient to
support a finding of infringement. Id.
VirnetX contends that Apple’s argument that
NATs are insufficient to support a finding of infringement because they cannot achieve one of the exemplary goals of the patents fails because the Court has
already observed that this goal does not limit the
claims. Id. (citing VirnetX, Inc. v. Microsoft Corp.,
2009 WL 2370727, at *5 n.4 (E.D. Tex. July 30, 2009).
VirnetX further argues that Dr. Jones did not admit
that private IP addresses are visible over the peer-topeer connection, but instead stated only that the private IP address of the caller is visible during the link
setup and is not visible over the link itself. Id. at 5
(citing Trial Tr. 9/27/16 PM at 115:7-116:2). VirnetX
also contends that, because FaceTime was designed to
support establishing links between devices located behind NATs, Apple’s motion should be denied.
VirnetX argues that its comparison between
FaceTime and VPN on Demand was not necessary to
support the verdict and was not legally improper. Id.
at 6. VirnetX argues that it did not attempt to prove
that FaceTime and VPN on Demand were identical,
nor did it rely solely on a comparison between

16a
FaceTime and VPN to prove infringement, but instead compared FaceTime to the claims of the patent.
Id. VirnetX further states that its comparison was relevant to rebut Apple’s argument that an eavesdropper’s ability to view a caller’s public IP address rendered FaceTime non-anonymous. Id.
VirnetX also contends that Dr. Jones’s testimony
on FaceTime’s setup process and on the dynamically
changing IP addresses, while not necessary to uphold
the jury’s finding of infringement, offers additional
support. Id. VirnetX argues that the setup process is
relevant because it sends identifying information over
FaceTime’s servers, removing any need to send that
information over the peer-to-peer connection on the
open internet. Id. at 7. VirnetX also contends that Apple’s choice to design the system to use IP addresses,
which regularly change, provides additional anonymity to FaceTime calls. Id.
The evidence presented at trial supports a finding
that a reasonable jury could determine that FaceTime
supports “a direct communication link that provides
data security and anonymity,” as required by the Federal Circuit’s claim construction. See VirnetX, Inc. v.
Cisco Sys., Inc., 767 F.3d 1308, 1317 (Fed. Cir. 2015).
Apple admits that FaceTime supports a communication link between devices located behind NATs, see
Docket No. 1062 at 3, and VirnetX presented evidence
at trial that NATs provide anonymity by hiding the
users private IP address, see Trial Tr. 9/27/16 PM at
48:10-51:18, 49:5-7, 124:16-125:5; Trial Tr. 9/30/16
AM at 98:3-9, 141:10-20, 124:4-5. In light of this testimony, the Court finds that there was substantial

17a
evidence for the jury to conclude that FaceTime supports a direct-communication link that provides anonymity.
Apple’s arguments to the contrary are unpersuasive. The presence of NATs in the prior art is unrelated to non-infringement, and the fact that NATs are
not a part of FaceTime is irrelevant because the
claims only require the system to “support establishing” a direct communication link that provides anonymity. Similarly, the system’s ability to meet an exemplary goal listed in the patent specification is irrelevant, as the Court has already observed that this
language does not limit the claims. See VirnetX, Inc.
v. Microsoft Corp., 2009 WL 2370727, at *5 n.4 (E.D.
Tex. July 30, 2009). Finally, VirnetX’s comparison of
FaceTime to VPN on Demand and testimony regarding the FaceTime call-setup process and the dynamic
nature of IP addresses, while not necessary to uphold
the jury’s verdict, was relevant to respond to Apple’s
trial arguments and offers further support for the
jury’s finding of infringement.
Accordingly, Apple’s motion for judgment as a
matter of law of non-infringement is DENIED.
2. Judgment as a Matter of Law on
Damages
Apple argues that the testimony of VirnetX’s
damages expert, Mr. Weinstein, shows that the jury’s
damages verdict did not have a legally sufficient basis. Docket No. 1062 at 10. Apple contends that VirnetX presented no “particularized expert testimony
explaining how various differences between the real

18a
and hypothetical license negotiations … would factor
into the appropriate royalty for [Apple’s] infringement” that would have permitted the jury to arrive at
over $302 million in damages. Id. (citing Lucent
Techs., Inc. v. Gateway, Inc., 580 F.3d 1301, 1329
(Fed. Cir. 2009)). Apple states that the only economically reliable evidence establishes that the royalty
rate could not be more than $0.10 per unit, well below
the $1.20 per-unit rate awarded by the jury.
Apple argues that Mr. Weinstein’s damages
model does not apportion the incremental value that
the patented invention added to the end product. Id.
at 10-11 (citing CSIRO v. Cisco Sys., Inc., 809 F.3d
1295, 1301 (Fed. Cir. 2015)). Apple contends that Mr.
Weinstein relied on VirnetX’s licensing policy and
suggests that there is no evidence in the record that
the licensing policy is apportioned. Id. at 12. Apple argues that the testimony of Kendall Larsen, VirnetX’s
president, who stated that VirnetX’s policy was to license its patents as a family, shows that the licenses
upon which Mr. Weinstein relied are not apportioned.
Id.
Apple states that Mr. Weinstein admitted that his
per-unit rates are not apportioned for the accused
products or features. Id. at 13. Though Mr. Weinstein
claimed his $1.20 rate was apportioned because he included only revenues related to Voice over Internet
Protocol (“VoIP”) phones, Apple contends that there is
no proof in the record that these rates reflect the value
of VirnetX’s technology in those phones and that Mr.
Weinstein admitted that VirnetX does not charge the
same rate to all its licensees. Id. Further, Apple

19a
argues that Mr. Weinstein admitted that Apple devices are far more complex that VoIP phones but
made no adjustment for this difference. Id.
Apple states that Mr. Weinstein relied on the
value of VPN on Demand and FaceTime and not on
the value that VirnetX’s technology added to those
features. Id. at 14. Apple argues that this reliance was
inappropriate because both features have modes that
indisputably do not incorporate the patented technology and because both features include other, unaccounted-for technologies not patented by VirnetX. Id.
Apple further contends that Mr. Weinstein did not account for the fact that each of the license agreements
in his analysis included licenses to more patents than
were at issue in this case and that Mr. Weinstein
failed to account for that difference. Id. at 15-16.
Apple next argues that the VoIP licenses relied on
by Mr. Weinstein were not sufficiently comparable to
the Apple devices and therefore cannot support the
damages award. Id. at 16. Apple first contends that
Mr. Weinstein made no adjustment to render the
VoIP licenses comparable to the license that VirnetX
and Apple would have negotiated in a hypothetical
negotiation. Id. Next, Apple argues that Mr. Weinstein admitted that several of the companies whose
licenses Mr. Weinstein relied on do not compete with
Apple and that the licensed VoIP phones are far less
complex than the accused Apple devices. Id. at 16-17.
Third, Apple states that the VoIP licenses are not
comparable because each was entered into in 2012
and 2013, well after the June 2009 hypothetical negotiation. Id. at 17. Fourth, Apple states that the

20a
royalties paid under the VoIP licenses do not reflect
the value of the patented technology and instead reflect the value of avoiding litigation. Id. Finally, Apple
contends that the low number of units (5.2 million
combined units) and low amount of royalties
($14.1 million combined) that were subject to the
VoIP licenses (and which were estimated through
2022) undermine their comparability and reliability.
Id. at 18.
Apple also argues that Mr. Weinstein’s damages
model violated the entire market value rule. Id. Apple
states that there was no showing that VirnetX’s patented technology drives sales of Apple’s products and
argues that VirnetX nonetheless presented a damages model at trial that relied on percentage-based
rates applied to Apple’s end-product revenues. Id. at
19. Apple argues that VirnetX introduced testimony
regarding its licensing policy, which applies a one to
two percent royalty rate to end-product prices, then
relied on the percentage-based royalty rates in its
VoIP licenses, which are applied to end-product
prices. Id. Apple further contends that VirnetX elicited the price of the licensees’ products and compared
that price to the price of Apple’s accused devices. Id.
Apple argues that by giving the jury these pieces of
information, VirnetX invited the jury to apply a percentage-based royalty to the entire revenue of the accused devices, which is the same model the Federal
Circuit held to be legally erroneous in the first appeal.
Id.
Apple next contends that it is entitled to a partial
offset of any damages award for products that are

21a
already licensed, including, for example, accused devices that already include Skype. Id. at 20. Apple
states that Skype is available for download on the accused devices and argues that these devices that contain Skype are already licensed, rendering any award
for those devices impermissible. Id. (citing Aero
Prods., Int’l v. Intex Recreation Corp., 466 F.3d 1000,
1017, 1019 (Fed. Cir. 2006); Bowers v. Baystate
Techs., Inc., 320 F.3d 1317, 1327-28 (Fed. Cir. 2003).
Finally, Apple argues that no reasonable jury
could award more than $25.2 million in damages. Id.
at 21. Apple states that the $1.20 per-unit rate offered
by Mr. Weinstein and adopted by the jury is the economically unsound average of Mr. Weinstein’s translated per-unit rates from the five VoIP licenses and
the Microsoft license. Id. Apple contends that of the
licenses considered by Mr. Weinstein, only the Microsoft license was comparable because it was the
only license to include products with as many features
as the accused products. Id. Apple states that Mr.
Weinstein admitted that his rate for the Microsoft license, $0.19 per unit, was flawed because it did not
account for Microsoft’s foreign sales. Apple argues
that Mr. Weinstein admitted that if these sales were
taken into account, the royalty rate would be $0.10
per unit, which would lead to a damages award of approximately $25.2 million. Id.
In response, VirnetX argues that Apple is inappropriately re-urging its failed Daubert motion
against Mr. Weinstein’s theory and requests that the
Court decline to consider Apple’s Rule 50 arguments
relating to his damages theory. Docket No. 1065 at 8

22a
(citing Rembrandt Wireless Techs., LP v. Samsung Elecs. Co., Ltd., et al., 2016 WL 362540, *3-4 (E.D. Tex.
Jan. 29, 2016) (declining to consider JMOL arguments previously made in a Daubert motion and stating that “[t]he Federal Circuit held that a JMOL is
not the appropriate context for renewing attacks on
an expert’s methodology”)). VirnetX further states
that Apple’s arguments are factually and legally incorrect and that VirnetX has met its burden of proof
on damages through Mr. Weinstein’s testimony. Id.
VirnetX states that Mr. Weinstein’s damages
opinions were properly apportioned and based on
comparable licenses. Id. at 9. VirnetX contends that
Mr. Weinstein’s analysis was based on actual agreements in which companies paid an apportioned value
to VirnetX for the patented technology and that he
therefore did not need to present all the details of how
the VirnetX licensing policy was apportioned to the
patents-in-suit because the real-world market had already done the apportionment for him. Id. VirnetX argues that Apple’s argument against Mr. Weinstein’s
damages is therefore one of evidentiary weight and is
not an appropriate ground for judgment as a matter
of law. Id. at 12.
VirnetX further states that Mr. Weinstein
properly apportioned his royalty rate to account for
unpatented technology. Id. VirnetX argues that the
fact that VirnetX charges less as products become
more complex, as reflected in the different royalty
rates charged to companies, shows that Mr. Weinstein’s model is apportioned to Apple’s products. Id. at
13. VirnetX also argues that the fact that the per-unit

23a
rate applied to Apple is much lower than the one to
two percent of revenue that VirnetX licensees typically pay. Id. VirnetX states that Apple has no legal
support for its argument that Mr. Weinstein was also
required to identify the value of the unpatented features of the accused products and contends that Apple’s damages expert, Christopher Bakewell, also
failed to identify the value of these features. Id. VirnetX further argues that Apple has cited no evidence
that its customers use the unpatented elements of the
VPN on Demand and FaceTime or that the features
provide any value to its customers. Id. at 14.
VirnetX next states that Mr. Weinstein properly
accounted for the differences between VirnetX’s licenses that support his damages theory and the hypothetical negotiation by carefully distinguishing facts
related to the comparability of VirnetX’s licenses in
discussing Georgia- Pacific Factor 1. Id. at 15. VirnetX argues that the Federal Circuit has already held
that the licenses are sufficiently comparable to form
the basis of a royalty rate analysis. Id. (citing VirnetX,
767 F.3d at 1330-31; CSIRO, 809 F.3d at 1303). VirnetX contends that each of Apple’s arguments about
the differences between the licenses and the hypothetical negotiation go to the weight of the evidence
presented to the jury and are therefore not relevant
to a Rule 50 motion. Id. at 16-17.
VirnetX next contends that Mr. Weinstein’s damages model does not violate the entire market value
rule. Id. at 17. VirnetX argues that because Mr. Weinstein did not use the entire market value of Apple’s
products as his royalty base, he could not have applied

24a
the entire market value rule. Id. VirnetX states that
there was no evidence in the record of the total revenue or full price of the accused products. Id. VirnetX
further argues that the entire market value rule was
not violated because Mr. Weinstein specifically informed the jury that he was not asking the jury to
award a percentage of Apple’s products as damages
and because the Court gave a cautionary instruction
that forbade the jury from applying the entire market
value. Id. at 18.
VirnetX states that Apple has waived any argument that it is entitled to a partial damages offset
based on certain of its products being already licensed. Id. VirnetX argues that “license” is an affirmative defense that is waived if not pleaded by the defendant. Id. at 19 (citing Davis v. Huskipower Outdoor
Equipment Corp., 936 F.2d 193, 198 (5th Cir. 1991)).
VirnetX further contends that the defense would not
be available to Apple even if it had timely raised it
because Apple devices are not shipped with Skype and
because Apple cites no authority for the premise that
post-sale actions of end users to modify a product can
entitle a defendant to assert this defense. Id.
Finally, VirnetX argues that the damages award
is properly supported. Id. VirnetX contends that Apple does not argue that the verdict is unsupported by
substantial evidence but rather invites the Court to
re-weigh the evidence. Id. Therefore, VirnetX argues,
there is no basis for judgment as a matter of law.
The Court finds that the record contains sufficient
evidence to support the jury’s damages award. VirnetX presented competent evidence that Mr.

25a
Weinstein’s licensing model was properly apportioned
and adequately accounted for similarities and differences in the comparable licenses. See Trial Tr. 9/28/16
PM at 6:12-120:14; Trial Tr. 9/29/16 AM at 14:5-50:17;
PX1088.2; PX1088.3; PX1089.13; PX1089.2; 1089.3;
PX1089.4; PX1089.6. The licenses upon which Mr.
Weinstein’s analysis was based were already apportioned, and Mr. Weinstein explained to the jury the
differences between the licenses and the hypothetical
negotiation. See Trial Tr. 9/28/16 PM at 18:25-31:21.
Further, VirnetX did not present a theory that violated the entire market value rule, as the jury was not
told the total revenue or total price of the accused
products, and the Court instructed the jury not to consider any outside knowledge they may have had about
these figures. See Trial Tr. 9/30/16 PM at 28:9-13.
Apple is also not entitled to an offset for devices
that include Skype. Apple never pled a license defense, and Apple presented no evidence that its devices are shipped with Skype included. Apple also provides no explanation for why the actions of its endusers to modify its product post- sale should bring Apple under the protection of third-party licenses.
All of Apple’s criticisms of Mr. Weinstein’s model
were addressed during his cross examination, see
Trial Tr. 9/28/16 PM at 74:15-82:16; Docket No. 1038
(“Sealed Trial Tr. 9/28/16”) at 41:1-43:2, and the jury
weighed the testimony and evidence to reach its verdict. None of the criticisms identified by Apple, individually or collectively, undermine the jury’s damages
award.

26a
Accordingly, Apple’s motion for judgment as a
matter of law on damages is DENIED.
3. New Trial on Infringement
Apple argues that the weight of the evidence does
not support a finding of infringement by the jury and
states that it should be granted a new trial as a result.
Docket No. 1062 at 22. Apple repeats its arguments
regarding the lack anonymity in FaceTime’s peer-topeer connection from its motion for judgment as a
matter of law. Id. Apple similarly repeats its arguments that Dr. Jones invited the jury to render an infringement verdict on improper grounds and accordingly requests a new trial on infringement. Id.
Apple also contends the Court erred in allowing
VirnetX to introduce evidence of the FaceTime relay
redesign and thus deprived it of a fair trial on infringement. Id. Apple states that while VirnetX
agreed that this evidence would be improper to use to
suggest liability, VirnetX nonetheless repeatedly referenced the redesign with every one of the parties’ expert witnesses, including the technical experts. Id. at
22-23. Apple asserts that these references improperly
suggested the redesign was an admission of infringement and argues that a juror question requesting a
technical explanation for the redesign from Apple’s
technical expert shows that the references confused
the jury and invited speculation that the previous version had already been determined to be infringing. Id.
at 23-24. Apple further contends that the Court’s instruction that this evidence could not be used to determine liability was insufficient to overcome the
prejudice introduced by the evidence. Id. at 24.

27a
Apple next argues that the Court’s instructions on
liability were erroneous. Id. at 25. Apple contends
that the Court erred in denying its request for the jury
to be instructed “that the hiding of IP addresses as
shown in the [Tunneled Agile Routing Protocol
(“TARP”)] embodiment is a ‘key part of the novel solution to the specific problem identified in the prior
art’ “. Id. at 26-27 (quoting VirnetX, 767 F.3d at 1318).
Apple states that this language should have been included to ensure fidelity to the Federal Circuit’s mandate. Id. at 26. Apple argues that the Court also erred
by giving VirnetX’s proposed “practicing the prior art”
instruction. Id. at 27. Apple states that it did not attempt to use invalidity arguments as part of its noninfringement case and argues that the instruction
was therefore unnecessary and irrelevant. Id. Apple
contends that the instruction was prejudicial because
it inappropriately suggested that the jury should disregard Apple’s argument that NATs were part of conventional internet communications and therefore do
not provide anonymity. Id. at 28.
VirnetX responds that the verdict is not against
the great weight of the evidence. Docket No. 1065 at
20. VirnetX re-urges its arguments regarding an
eavesdropper’s inability to correlate to a specific machine or person on a FaceTime call. Id. VirnetX also
repeats its argument that the secure communication
link itself provides anonymity and that the anonymity is enhanced by the changing nature of IP addresses and FaceTime’s call setup process. Id. VirnetX further contends that Apple’s arguments concerning Dr. Jones’s testimony regarding IP addresses
and the call setup process were waived because Apple

28a
never moved to exclude this testimony through a
Daubert motion and never objected at trial. Id. at 21.
VirnetX states that the Court did not err in admitting evidence regarding the cost of Apple’s
FaceTime redesign and argues that this evidence was
relevant to damages and was therefore properly admitted. Id. at 22. VirnetX contends that this evidence
undermined Apple’s damages model, which was less
than half the amount Apple spent on its redesign. Id.
VirnetX argues that the redesign evidence also highlighted the importance of encrypted peer-to-peer connections and the lack of acceptable non-infringing alternatives. Id. VirnetX states that it agreed to Apple’s
requested instruction on this issue and that Apple
never indicated that the instruction was insufficient
and never objected to VirnetX’s use of the evidence at
trial. Id. at 22-23. VirnetX contends there was no undue prejudice because VirnetX never used the redesigns to imply a prior finding of infringement. Id. at
23. VirnetX further argues that even if the juror question relating to the redesign reflected some confusion
on the part of a juror, any confusion was cleared up
by the Court’s instruction. Id. at 24.
Finally, VirnetX contends that the Court’s liability instructions were correct. Id. at 25. VirnetX states
that the Court properly refused Apple’s TARP embodiment instruction because TARP is not a claim requirement. Id. VirnetX contends that the Federal Circuit’s opinion did not provide any specific limitations
on the scope of “anonymity” and did not import any
aspect of TARP into the claim limitations. Id. at 26.
VirnetX further argues that Apple’s proposed

29a
instruction was not substantially correct, but instead
misleadingly suggested that TARP was a requirement
of the claims. Id. at 26. VirnetX further argues that
the Court’s instruction on practicing the prior art was
proper. Id. at 27. VirnetX contends that Apple improperly argued throughout trial that it could not infringe because NATs existed in the prior art, despite
the fact that the existence of an element in the prior
art is not a defense to literal infringement. Id. VirnetX further argues that even if Apple had not presented a practicing the prior art defense, the instruction was not prejudicial because it was legally correct
and because the jury had been instructed on the nature of prior art in the preliminary instructions and
was therefore unlikely to be confused on the issue. Id.
at 28.
The Court finds that Apple is not entitled to a new
trial on infringement. As stated with respect to Apple’s motion for judgment as a matter of law of noninfringement, see supra § I.C.1, VirnetX presented
substantial evidence to support the jury’s finding of
infringement, and Apple has not shown that the infringement finding was against the great weight of
the evidence. Further, Apple has not shown that the
admission of evidence of FaceTime’s redesign deprived Apple of a fair trial. As the Court stated, this
evidence was relevant to damages, see Docket No. 978
at 4, and the jury was instructed that this evidence
was not to be used in its infringement determination,
Trial Tr. 9/30/16 PM at 21:5-11.
Apple similarly has not shown any deficiency in
the jury instructions that would entitle it to a new

30a
trial on infringement. Refusing to give requested jury
instructions requires a new trial where “(1) the requested instruction is substantially correct; (2) the requested issue is not substantially covered in the
charge; and (3) the instruction concerns an important
point in the trial so that the failure to give it seriously
impaired the defendant’s ability to effectively present
a given defense.” United States v. John, 309 F.3d 298,
304 (5th Cir. 2002). A party seeking to alter a judgment based on erroneous jury instructions must establish that “those instructions were legally erroneous,” and that “the errors had prejudicial effect.” Advanced Display Sys., Inc. v. Kent State Univ., 212 F.3d
1272, 1281 (Fed. Cir. 2000). Apple has not shown that
these requirements are met here. Regarding the
Court’s decision not to include an instruction on
TARP, the Court notes that the Federal Circuit did
not include any limitation related to the TARP embodiment in its construction. See VirnetX, 767 F.3d at
1319. Thus, instructing the jury that the hiding of IP
addresses as shown in the TARP embodiment is a
“key part of the novel solution to the specific problem
identified in the prior art,” as Apple requested, could
have potentially misled the jury into believing that
TARP was a requirement of the claims. Further, Apple has not shown that the Court erred in including
an instruction on practicing the prior art. Apple presented testimony that NATs were in the prior art in
relation to its non-infringement arguments, see Trial
Tr. 9/30/16 AM at 67:15-17; 67:22-25; 159:9-19;
185:24-186:2, and Apple has not argued that the
Court’s instruction misstated the law. Apple has
therefore not shown that it is entitled to a new trial
based on the jury instructions.

31a
Accordingly, Apple’s motion for a new trial on infringement is DENIED.
4. New Trial on Damages
Apple also requests a new trial on damages.
Docket No. 1062 at 28. Apple argues that the damages verdict related to FaceTime is not separable from
the damages verdict for VPN on Demand. Id. Apple
provides five additional reasons that the Court should
grant it a new trial on damages.
First, Apple argues that Mr. Weinstein’s testimony should have been excluded and repeats its arguments that his damages model was based on unapportioned licenses and entire market value-based royalty rates. Id. at 29-30.
Second, Apple argues that VirnetX’s “reasonableness” checks on damages were unreliable. Id. at 30.
Apple states that it was error to allow Mr. Weinstein
to testify that it would cost $1.3 billion to implement
an agreed non-infringing alternative because Mr.
Weinstein relied on Dr. Jones’s opinion for the cost
figure, arguing that “expert testimony based solely or
primarily on the opinions of other experts is inherently unreliable.” Id. (quoting Hunt v. McNeil Consumer Healthcare, 297 F.R.D. 268, 275 (E.D. La.
2014)). Apple argues that Dr. Jones’s figure was based
on the unreliable assumptions that Apple would have
needed to relay 10,000 calls per second and would
need 6,000 to 12,000 Gbps to accomplish that. Id. at
31. Apple states that Dr. Jones admitted that
FaceTime has never needed capacities that high before. Id. Apple contends that VirnetX improperly

32a
injected this number into the trial to make VirnetX’s
proffered damages amount appear more reasonable,
resulting in an artificial inflation of the jury’s damages calculation. Id.
Apple also argues that VirnetX invited the jury to
apply the entire market value rule as a reasonableness check on its damages calculation. Id. at 32. Apple
repeats its arguments related to damages as described in its motion for judgment as a matter of law
on damages, contending again that VirnetX presented
testimony that allowed the jury to apply the entire
market value rule. Id. Apple argues that Mr. Weinstein’s testimony reminded the jury of what they may
have already known about the price of iPhones by testifying that Aastra VoIP phones cost about $250 and
suggesting that there was a significant disparity in
the price of a VoIP phone and the price of an iPhone.
Id. at 33.
Third, Apple argues that the exclusion of the Patent Trial and Appeal Board’s (“PTAB”) final written
decisions warrants a new trial on damages because it
gave the jury the false impression that VirnetX’s
claimed invention provided an improvement over the
prior art. Id. Apple states that VirnetX witnesses repeatedly testified to advantages over the prior art and
argues that it should have been permitted to rebut
that evidence with the final written decisions. Id. at
34. Apple argues that the Court’s exclusion of this evidence was error and is grounds for a new trial. Id. at
35.
Fourth, Apple contends that the jury instructions
on damages were erroneous. Id. Apple repeats its

33a
argument from its motion for judgment as a matter of
law on damages that the jury should have been instructed on the entire market value rule. Id. Apple
also argues that the Court erred by instructing the
jury that a reasonable royalty is “the reasonable
amount that someone wanting to use the patented invention should expect to pay to the patent owner and
the patent owner should expect to receive,” instead of
instructing that a reasonable royalty is “the reasonable amount someone wanting to use the patented invention would be willing to pay to the patent owner
and the patent owner would be willing to receive.” Id.
at 36. (emphasis added). Apple contends that this is
an incorrect statement of the law. Id. (citing Aqua
Shield v. Inter Pool Cover Team, 774 F.3d 766, 770
(Fed. Cir. 2014)). Apple argues that this error led the
jury to award VirnetX what it expected to receive, not
what Apple would have been willing to pay at the hypothetical negotiation. Id. at 37.
Finally, Apple argues that the damages award is
excessive and against the weight of the evidence. Id.
According to Apple, VirnetX made several misstatements—including telling the jury that Apple employees could have seen VirnetX’s licenses when the licenses were actually designated “Attorneys’ Eyes
Only,” which VirnetX moved to seal after trial—that
inflamed the jury to award an exorbitant damages
award. Id. at 37-38. Apple argues that the jury’s
award is against the weight of relevant and reliable
economic evidence because the only reliable royalty
rate is the $0.10 per-unit rate from the Microsoft license. Id. at 39. Apple states that it should be granted

34a
a new trial for these reasons or that the Court should
reduce the damages to match the $0.10 royalty rate.
VirnetX responds that Apple is not entitled to a
new trial on damages. Docket No. 1065 at 29. VirnetX
repeats its argument that Mr. Weinstein’s testimony
was properly admissible and more than sufficient to
support the jury’s award. Id. VirnetX states that Apple has presented no new arguments that were not
raised in Apple’s Daubert motion—which the Court
denied—and that the Court should therefore deny Apple’s request for a new trial. Id.
VirnetX next argues that it used no improper reasonableness checks on damages. Id. at 30. VirnetX
states that Apple presented this argument in its
Daubert motion. Id. VirnetX further contends that it
was not improper for Mr. Weinstein to rely on Dr.
Jones’s analysis and that Mr. Weinstein’s opinion was
based on other information as well. Id. at 30-31. VirnetX also argues that it did not violate the entire market value rule. Id. at 31. VirnetX states that the jury
never heard the price of an Apple device and that Apple’s arguments about the jurors’ knowledge of its
prices are pure conjecture. Id. at 31-32. VirnetX further argues that any reference to prices would have
been a proper response to Apple’s improper royalty
stacking arguments. Id. at 32.
VirnetX also argues that the Court properly excluded evidence of the PTAB proceedings. VirnetX
states that the Federal Circuit has already affirmed
the exclusion of evidence from the PTAB proceedings
in this case and that this Court rejected the same argument. Id. at 33-34. VirnetX argues that its

35a
description of the invention and its criticism of Apple’s infringement cannot make these proceedings relevant. Id. at 34. VirnetX contends that the PTAB proceedings have no effect on the presumed validity of its
patents until the final exhaustion of VirnetX’s appellate rights. Id. (citing 35 U.S.C. Section 318(b)).
VirnetX next contends that the jury instructions
on damages were proper. Id. at 35. VirnetX states
that, contrary to Apple’s arguments, the Court did
provide guidance to the jury about the entire market
value rule by instructing the jury:
[I]n determining a reasonable royalty, you
must not rely on the overall price of Apple’s
accused products at issue in this case. Damages for patent infringement must be apportioned to reflect the value the invention contributes to the accused products or features
and must not include value from the accused
products or features that is not attributable to
the patent.
Id. at 35-36 (quoting Docket No. 1021 at 4). VirnetX
argues that this instruction provided the jury the necessary guidance to properly determine the royalty
rate and that Apple’s proposed instruction would only
have made the jury more likely to improperly apply
the entire market value rule. Id. at 36.
VirnetX also argues that the Court’s instruction
on the hypothetical negotiation was accurate and that
Apple’s proposed instruction was legally incorrect and
misleading. Id. at 37. VirnetX states that the Court’s
instruction has been used by numerous courts in this

36a
district and that it accurately captures the concept of
the hypothetical negotiation. Id. at 37. VirnetX contends that the difference between what an infringer
“should expect” to pay and what an infringer “would
be willing” to pay would only be different in the case
of a willful infringer. Id. VirnetX further states that
even if the difference between those two phrases could
cause confusion, the charge as a whole correctly instructed the jury on the concept. Id. at 38. VirnetX
also contends that Apple’s proposed instruction is legally inaccurate because the willingness of a patent
owner to receive a certain royalty does not define the
result of the hypothetical negotiation. Id. VirnetX further argues that the willingness of the infringer to pay
a certain sum is relevant if it presented in the context
of what the infringer would pay while still maintaining a reasonable expectation of profit. Id. at 39. VirnetX also contends that because Apple shielded the
jury from its profit margins, Apple’s proposed instruction did not explain the concept in proper context. Id.
Finally, VirnetX states that the jury’s damages
award was proper. Id. VirnetX notes that two different juries presented with nearly identical damages
evidence awarded substantially similar awards. Id.
VirnetX refers to its previous arguments regarding
the substantial evidence that supported the jury’s
verdict and argues that Apple is simply re-urging arguments the jury rejected. Id. VirnetX states that Apple’s belief that the jury should have reached a different conclusion does not justify a new trial. Id. at 40.
The Court finds that Apple is not entitled to a new
trial on damages. As stated above in the Court’s

37a
analysis of Apple’s motion for judgment as a matter of
law on damages, VirnetX presented substantial evidence to support the jury’s damages award, and Apple
has not shown that the award was against the great
weight of the evidence or that there was any other deficiency present in the trial that would warrant a new
trial. See supra § I.C.2.
Apple’s argument that Mr. Weinstein’s testimony
should be excluded is substantially the same as its
Daubert argument, which the Court rejected. See
Docket No. 362 in Case No. 6:12- cv-855. Apple has
not presented any reason the Court should reconsider
that decision.
Next, Apple’s contention that Mr. Weinstein provided improper reasonableness checks is unpersuasive. Mr. Weinstein’s reliance on Dr. Jones’s analysis
was not improper, as damages experts frequently rely
on technical experts. See Apple Inc. v. Motorola, Inc.,
757 F.3d 1286, 1321 (Fed. Cir. 2014) (“Consistent with
Rule 703, patent damages experts often rely on technical expertise outside of their field when evaluating
design around options or valuing the importance of
the specific, infringing features in a complex device.”).
Mr. Weinstein’s opinion was also based on facts other
than Dr. Jones’s analysis, and those facts were identified in his expert report. See Trial Tr. 9/28/16 PM
28:23-30:1; Docket No. 338-2 in Case No. 6:12-cv-855
at ¶¶ 221-26. Further, the Court fails to see how VirnetX could have invited the jury to use the price of
Apple’s devices as a reasonableness check when it is
undisputed that the price of Apple’s devices was never
presented to the jury and when the Court specifically

38a
instructed the jury not to consider the full price of Apple’s devices. See Docket No. 1021 at 4.
Apple’s argument that a new trial is warranted
because evidence of the PTAB proceedings was excluded is also unpersuasive. VirnetX’s appeals of
those proceedings are ongoing and none of the asserted claims has been cancelled. Further, because
the issue of willfulness was tried to the bench, the
PTAB proceedings have little, if any, relevance to the
issues presented to the jury, and VirnetX’s discussion
of the advantages over the prior art of its patents—
which are still presumed valid—did not make the
PTAB proceedings relevant.
Apple’s next argument, that the jury should have
been instructed on the entire market value rule and
that the instruction on the hypothetical negotiation
was incorrect, similarly fails. Though the prices of Apple’s devices were never presented to the jury, the
Court instructed the jury, out of an abundance of caution, not to rely on the full price of any Apple product.
See Docket No. 1021 at 4. The Court presumes that
the jury followed this instruction. See Francis v.
Franklin, 471 U.S. 307, 324 n.9 (1985). Further instructions on the precise contours of the entire market
value rule may have led the jury to mistakenly believe
that it could apply the rule despite the fact that the
record did not support the rule’s applicability. Further, the Court’s instructions on the hypothetical negotiation do not warrant a new trial. The instruction
as a whole properly conveyed to the jury that the reasonable royalty should reflect the fair market value of
the technology.

39a
Finally, the jury’s verdict was not against the
great weight of the evidence. The majority of Apple’s
arguments on this point were presented in its motion
for judgment as a matter of law, which the Court has
rejected above. See supra § I.C.2. Apple’s only new argument, that VirnetX attempted to inflame the jury
by using the term “non-infringing alternative” and by
stating that its licenses were public, is unpersuasive.
The jury was presented with substantial evidence to
support its award, and the Court instructed the jury
on how to properly determine damages. The Court
will not second-guess the jury’s decision merely because Apple claims that the jury’s decision was based
on passion rather than reasoned deliberation.
Accordingly, Apple’s motion for a new trial on
damages is DENIED.
D. Conclusion
For the reasons stated above, Apple’s motion for
judgment as a matter of law of non-infringement, motion for judgment as a matter of law on damages, motion for a new trial on infringement, and motion for a
new trial on damages (Docket No. 1062) are DENIED.
II. VIRNETX’S REQUEST FOR A FINDING OF
WILLFUL INFRINGEMENT
The parties presented the issue of willfulness
through briefing and oral argument (Docket
No. 1042). VirnetX filed a Post-Trial Brief Regarding
Willfulness (Docket No. 1047), and in response, Apple
filed an Opposition to VirnetX’s Post-Trial Brief

40a
Regarding Willfulness (Docket No. 1055). On November 22, 2016, the Court conducted a hearing on willfulness and various post-trial motions. Docket
No. 1075. For the reasons set forth below, the Court
finds that Apple willfully infringed VirnetX’s patents
by making, selling and offering for sale accused products containing the infringing VPN on Demand and
FaceTime features.
A. Findings of Fact
VirnetX filed its Complaint against Apple on August 11, 2010, alleging patent infringement. Docket
No. 1. On November 6, 2012, a jury found that the accused VPN on Demand and FaceTime features infringed the asserted patents and that the asserted patents were not invalid. Docket No. 790. After the jury
rendered its verdict, Apple continued to sell products
containing the accused features for a period of time
before redesigning the accused features. PX1007;
Docket Nos. 463, 475 in Case No. 6:12-cv-855.
Beginning in July 2011, Apple and other entities
began filing post-grant proceedings challenging the
validity of the asserted patents at the U.S. Patent and
Trademark Office (“Patent Office”). Docket No. 1055C; Docket No. 980-1 at ¶¶ 31, 36, 43, 45, 55, 60, 67,
73. Before the 2012 jury trial began, the Patent Office
had rejected all asserted claims as invalid in an inter
partes reexamination on multiple grounds and priorart references. Docket No. 585.
Approximately five months after the jury returned its verdict, Apple announced that it would remove the infringing “Always” mode from VPN on

41a
Demand. PX1007. After it announced the change,
however, Apple received negative feedback from its
customers. PX1012.03. As a result, Apple decided not
to remove the infringing “Always” mode. PX1126.
Six months later, Apple released a new version of
VPN on Demand. Docket Nos. 463, 475 in Case
No. 6:12-cv- 855. In sum, Apple continued to sell products with the infringing VPN on Demand feature for
10 months after the 2012 jury verdict.
Apple also redesigned its FaceTime feature to
route all calls through relay servers approximately
five months after the 2012 jury verdict. Docket No. 47
(“Hr’g Tr.”) in Case No. 6:13-cv-211 at 48:25-49:4.
During the 2012 trial, Apple’s corporate representative estimated that it would cost Apple only $3.6 million to route its FaceTime calls via relay servers.
Docket No. 613 (“Trial Tr. 11/2/12 AM”) at 68:3-17.
However, Apple ultimately paid $50 million to route
FaceTime calls through relay servers for just
21 months. Hr’g Tr. at 24:4-6, 48:25-49:4.
The parties dispute whether Apple willfully infringed VirnetX’s patents through its VPN on Demand and FaceTime features between the date of the
2012 jury verdict and the date that each feature was
redesigned. For the VPN on Demand feature, the parties agree that the relevant period is November 6,
2012 to September 17, 2013, which is approximately
10 months. Docket No. 1075 at 31:21-32:11, 47:15-24.
For the FaceTime feature, the parties agree that the
relevant period is November 6, 2012 to April 5, 2013,
which is approximately five months. Id.

42a
B. Legal Standard
Willful misconduct is conduct that is “wanton,
malicious, bad-faith, deliberate, consciously wrongful,
flagrant, or—indeed—characteristic of a pirate.” Halo
Elecs., Inc. v. Pulse Elecs., Inc., 136 S. Ct. 1923, 1932
(2016). A finding of willful infringement is appropriate only in “egregious” cases. Id. A plaintiff can establish willful infringement by proving the “subjective
willfulness of a patent infringer.” Id. at 1932, 1934.
Subjective willfulness is characterized by recklessness, or “knowing or having reason to know of facts
which would lead a reasonable man to realize his action is unreasonably risky.” Id. at 1933. Culpability
for willfulness is “measured against the knowledge of
the actor at the time of the challenged conduct.” Id. at
1933. Willful infringement must be proven by a preponderance of the evidence. Id. at 1934.
Prior to the Halo decision in June 2016, district
courts applied the Seagate test,3 requiring a patentee
to prove by clear and convincing evidence: (1) the absence of objectively reasonable defenses (i.e., the objective prong); and (2) that the risk of infringement
was either known or so obvious that it should have
been known (i.e., the subjective prong). In re Seagate
Tech., LLC, 497 F.3d 1360, 1371 (Fed. Cir. 2007). Halo
effectively eliminated the objective prong of the
Seagate test. 136 S. Ct. at 1933 (“The subjective willfulness of a patent infringer, intentional or knowing,
may warrant enhanced damages, without regard to
Because of the age of this case, the Court previously applied
Seagate in these proceedings.

3

43a
whether his infringement was objectively reckless.”);
see also Radware, Ltd. v. F5 Networks, Inc., No. 5:13CV-02024-RMW, 2016 WL 4427490, at *3 (N.D. Cal.
Aug. 22, 2016) (“The Supreme Court’s Halo decision
eliminated Seagate’s objective prong”).
C. Parties’ Positions
VirnetX argues that Apple, contrary to its arguments, did not actually rely on its appellate positions
in its continued infringement because it attempted to
redesign VPN On Demand after the 2012 jury verdict.
Docket No. 1047 at 5. VirnetX contends that Apple’s
post-verdict behavior was reckless because the evidence indicates that Apple abandoned its VPN On Demand redesign—not based on an appellate position—
but in response to customer complaints. Id. at 5-6. According to VirnetX, there is in fact no record evidence
that Apple’s continued use of the adjudged infringing
version of VPN On Demand was based on Apple’s appellate position. Id. at 7.
With respect to FaceTime, VirnetX argues that
Apple’s conduct was especially egregious. Id. VirnetX
explains that during the 2012 trial, Apple’s corporate
representative inaccurately described the cost of implementing a non-infringing version of FaceTime,
which was corrected in post-trial briefing. Id. According to VirnetX, Apple implemented that non-infringing relay version of FaceTime on April 5, 2013 but
abandoned the version in mid-September 2013 because of the cost. Id. at 8. Further, VirnetX claims
that the redesigned version of FaceTime had nothing
to do with Apple’s anonymity defense. Id. at 9. VirnetX argues that the combination of these events

44a
demonstrates the recklessness and egregiousness of
Apple’s conduct. Id. at 10.
VirnetX states that, although Apple prevailed on
appeal in incorporating an anonymity requirement
into the claim term “secure communication link,” the
altered claim construction was never the basis of a
reasonable non-infringement position. Id. at 10. VirnetX explains that this is evident from the multiple
and evolving non-infringement arguments with respect to FaceTime that were presented by Apple in the
three trials. Id. at 10-12.
VirnetX also argues that the post-grant proceedings at the Patent Office do not preclude a finding of
willfulness because the final decisions that Apple relies on did not occur until 2015 and 2016. Id. at 12.
VirnetX further states that the asserted claims are
currently valid and infringed. Id. at 13.
VirnetX contends that Apple has already conceded willful infringement for VPN on Demand because Apple conceded the subjective prong of the
Seagate test during the consolidated trial. Id. VirnetX
argues that, under the new Halo analysis, Apple’s
concession is sufficient for a finding of willful infringement. Id. VirnetX also argues that Apple’s willful infringement as to VPN on Demand and FaceTime is
the law of the case because the Court already determined that Apple’s post-2012-verdict sales constitute
willful infringement. Id. at 14.
In response, Apple argues VirnetX waived any
claim of willful infringement in this case when it “affirmatively represented to this Court that willfulness

45a
‘is not in this case’ “and that “it would be inappropriate for the Court to grant any form of relief … for
something not at issue in this case.” Docket
No. 1055 at 5 (emphasis in original). Apple also notes
that the issue of willful infringement was not presented to the jury in 2012 and that the jury was neither instructed on nor asked to decide the question of
willful infringement. Id. In addition, Apple states that
the Federal Circuit did not identify willfulness as a
live issue for further proceedings. Id.
Apple further states that the Court did not previously decide the factual issue of willful infringement
in Judge Davis’s February 2014 post-verdict equitable determination in the ongoing royalty action
(Docket No. 48 in Case No. 6:13-cv-211). Id. at 7. Apple also explains that willful infringement is an issue
for the jury that could not have been decided by Judge
Davis; Judge Davis only presumed that Apple willfully infringed for the purposes of determining
whether to enhance the ongoing royalty rate. Id. Apple takes the position that, even if this Court had previously decided the issue of willfulness, “the Federal
Circuit expressly vacated that order in its entirety,
thereby rendering any willfulness finding inapplicable.” Id.
In addition, Apple states that it did not commit
egregious conduct that would warrant a finding of
willful infringement because it had a reasonable,
long-held and continuing belief in the invalidity of the
asserted patents. Id. at 8 (citing WesternGeco L.L.C.
v. ION Geophysical Corp., 837 F.3d 1358, 1361-63 n.2
(Fed. Cir. 2016) and Fresenius USA, Inc. v. Baxter

46a
Int’l, Inc., 721 F.3d 1330, 1347 (Fed. Cir. 2013)). Apple
states that it formed a good-faith belief of invalidity
of the asserted patents, based upon interim invalidity
decisions in post-grant proceedings before the Patent
Office, more than a year before the 2012 jury verdict.
Id. at 9-10. Apple explains that the rejections of the
asserted claims are now final, confirming that its invalidity arguments were correct and, therefore, by
definition reasonable. Id. at 11.
With respect to FaceTime, Apple argues that its
post-2012 jury verdict conduct was not willful because
it believed that the construction of “secure communication link” required anonymity and that its belief
was confirmed on appeal to the Federal Circuit. Id. at
12. In addition, Apple states that VirnetX agrees that
the redesign of FaceTime is non-infringing. Id.
With respect to VPN on Demand, Apple states
that it had a good-faith belief that the features did not
infringe because VPN on Demand did not “determin[e] whether” a domain name request was being
made for a secure website or make any requests for a
“secure server.” Id. at 13. Apple explains that it began
redesigning VPN on Demand immediately after the
2012 jury verdict in a way that VirnetX’s expert
agreed did not infringe. Id. at 13-14. Apple asserts
that its redesign efforts were diligent from the time of
the jury verdict to the launch of the redesign. Id. at
14. Apple states that it also sought the opinion of outside patent counsel to assess the suitability of the
VPN on Demand redesign, who concluded that it did
not infringe, prior to the implementation of the redesign. Id.

47a
Apple explains that it did not concede willful infringement of VPN on Demand during the consolidated trial when it stipulated to the subjective prong
of the previous Seagate test because Apple believed
that it would prevail on the objective prong and was
trying to streamline the issues for trial. Id. at 15.
D. Conclusions of Law
The Court finds that Apple willfully infringed VirnetX’s asserted patents through its continued sales of
the accused products containing the infringing VPN
on Demand and FaceTime features after the 2012 jury
verdict that found the patents infringed and not invalid.
The finding of infringement by the jury (Docket
No. 598) makes Apple’s continued sales after the verdict of products with the VPN on Demand and the
FaceTime features unreasonably risky or reckless.
See Modis Tech. Ltd. v. Chimei Innoluz Corp., 822 F.
Supp. 2d 639, 652 (E.D. Tex. 2011) (“And this Court
holds that absent unusual circumstances that are not
before this Court, a defendant is acting in the face of
an unjustifiable high risk of harm if it continues to
infringe in light of a jury verdict and judgment of infringement.”); Affinity Labs of Tex., LLC v. BMW N.
Am., LLC, 783 F. Supp. 2d 891, 899 (E.D. Tex. 2011)
(“Following a jury verdict and entry of judgment of infringement and no invalidity, a defendant’s continued
infringement will be willful absent very unusual circumstances.”); DataTreasury v. Wells Fargo & Co.,
No. Case 2:06-CV-72, Docket No. 2496 (E.D. Tex.
Aug. 2, 2011) at 12 (“[B]ecause U.S. Bank is an adjudged infringer, infringement going forward would

48a
likely be willful.”); Soverain Software LLC v. Newegg
Inc., 836 F. Supp. 2d 462, 482 (E.D. Tex. 2010), rev’d
in part and vacated in part on other grounds, 705 F.3d
1333 (Fed. Cir. 2013), amended on reh’g, 728 F.3d
1332 (Fed. Cir. 2013) (finding that “[defendant] is now
an adjudged infringer and [defendant’s] continued infringement is both voluntary and intentional, making
[defendant’s] continued infringement willful.”); Presidio Components Inc. v. Am. Tech. Ceramics Corp.,
Case No. 08-CV-335-IEG NLS, 2010 WL 3070370, at
*6 (S.D. Cal. Aug. 5, 2010), aff’d in part, vacated in
part, 702 F.3d 1351 (Fed. Cir. 2012) (“[I]n light of the
jury’s verdict of validity and infringement, … the
Court believes the rate proposed by Presidio is more
reasonable. Any rate below 12 % will give ATC, who
is now a willful infringer, a windfall at Presidio’s expense.”); I/P Engine, Inc. v. AOL Inc., Case No. 2:11CV-512, 2014 WL 309245, at *3 (E.D. Va. Jan. 28,
2014).
In light of the jury verdict finding VirnetX’s patents infringed and not invalid, Apple’s decision to
continue infringing was unreasonably risky, despite
any interim decisions in proceedings before the Patent Office. See Safoco, Inc. v. Cameron Int’l Corp.,
Case No. 05–0739, 2009 WL 2424108, at *21 (S.D.
Tex. July 31, 2009) (concluding that the “reexamination of the [patents], alone, do not foreclose Plaintiff’s
claims of willful infringement”); Fujitsu Ltd. v. Belkin
Int’l, Inc., Case No. 10-CV-03972-LHK, 2012 WL
4497966, at *34 (N.D. Cal. Sept. 28, 2012) (“[T]he
grant of a reexamination and interim PTO rejections,”
on their own, “are not probative … on the question of
patentability.”); DataQuill Ltd. v. High Tech

49a
Computer Corp., 887 F. Supp. 2d 999, 1018 (S.D. Cal.
2011) (“Further, courts have held that because [Patent Office] interim rejections are not binding, they
are generally not relevant to issue of invalidity.”).
Apple’s argument that it cannot be held liable for
willful infringement in light of Patent Office proceedings is unpersuasive. Apple argues that the Patent
Office proceedings are still relevant despite the Federal Circuit’s affirmance of the 2012 jury’s finding of
no invalidity. Docket No. 1055 at 8 (citing Fresenius,
F.3d at 1340). In Fresenius, the Federal Circuit held
that the cancellation of patent claims through Patent
Office proceedings extinguishes any pending cause of
action on those claims, even if there has already been
a jury verdict upholding validity on the same claims.
721 F.3d at 1340. Unlike in Fresenius, however, the
post-grant proceedings on VirnetX’s patents have not
resulted in cancellation of the asserted claims, as appeals of those proceedings are still ongoing. See 721
F.3d at 1347. Further, though Apple claims that the
PTAB’s final written decisions “confirm” Apple’s belief in the invalidity of the asserted patents, these decisions were issued long after Apple’s decision to continue infringing despite an adverse jury verdict. The
later result of a Patent Office proceeding does not bear
on Apple’s subjective willfulness or recklessness at
the time of its infringement.
Apple asserts that the proposition that post-verdict infringement generally constitutes willful infringement was determined to be improper in Halo
and other cases because willful infringement must be
evaluated based on a totality of the circumstances.

50a
Docket No. 1055 at 8 n.2. The Court disagrees that
Halo and subsequent cases refute the position that
post-verdict infringement generally constitutes willful infringement. It is unclear how Halo, which functionally eliminated the objective prong of Seagate and
lessened the requirements for a finding of willfulness,
would have the effect of narrowing the range of cases
where a finding of willfulness may be appropriate.
Further, the general presumption that post-verdict
infringement is willful is consistent with a totality-ofthe-circumstances inquiry, as the presumption requires courts to consider the specific circumstances of
the case. See Affinity Labs, 783 F. Supp. 2d at 899
(“Following a jury verdict and entry of judgment of infringement and no invalidity, a defendant’s continued
infringement will be willful absent very unusual circumstances.”).
Finally, VirnetX has not waived the issue of willfulness in this case. Although it was not included in
the complaint, willfulness was addressed in Judge
Davis’s order (Docket No. 48 in Case No. 6:13-cv-211)
and included on the verdict form for the consolidated
trial (Docket No. 425 in Case No. 6:12-cv-855 at 5).
Additionally, an allegation of willfulness with respect
to post-trial infringing activity could not have been included in the original complaint because, at the time
of filing, VirnetX could not have anticipated the verdict, Apple’s post-verdict conduct, or the willful nature of that conduct. Because the issue here is focused
on post-verdict continuing sales of an infringing feature, the Court finds that willfulness is not waived.
See SynQor, Inc. v. Artesyn Techs., Inc., 709 F.3d
1365, 1385 (Fed. Cir. 2013) (“This court also sees no

51a
reason why SynQor’s decision not to argue pre-verdict
willful infringement at trial should preclude the district court from finding willful infringement for postverdict sales.”); Modis, 822 F. Supp. 2d at 645,; Affinity Labs, 783 F. Supp. 2d at 899; I/P Engine, 2014 WL
309245, at *3.
E. Conclusion
For the reasons stated above, the Court finds that
VirnetX has proven by a preponderance of the evidence that Apple willfully infringed the asserted patents by continuing to make and sell infringing versions of VPN on Demand and FaceTime after the 2012
jury verdict.
III. VIRNETX’S MOTION FOR ENTRY OF
JUDGMENT AND EQUITABLE AND STATUTORY RELIEF
VirnetX requests that, in the event that the Court
finds Apple’s infringement after the 2012 verdict to be
willful, the damages for that infringement should be
enhanced. Docket No. 1063 at 1. VirnetX also requests attorneys’ fees under 35 U.S.C. § 285, costs as
the prevailing party, and pre- and post-judgment interest. Id. at 19-23.
A. Enhanced Damages
The Court has found that Apple’s post-verdict infringement was willful, see supra § II.D, and now
turns to the parties’ arguments regarding enhanced
damages.

52a
1. Legal Standard
A court may enhance the jury’s damages award by
up to three times. 35 U.S.C. § 284. “The paramount
determination in deciding enhancement and the
amount thereof is the egregiousness of the defendant’s conduct based on all the facts and circumstances.” Read Corp. v. Portec Inc., 970 F.2d 816 (Fed.
Cir. 1992). The non-exclusive Read factors used to
evaluate whether to enhance damages—and the
amount of any enhancement—include the following:
(1) whether the infringer deliberately copied the ideas
of another; (2) whether the infringer investigated the
scope of the patent and formed a good-faith belief that
it was invalid or that it was not infringed; (3) the infringer’s behavior as a party to the litigation; (4) the
defendant’s size and financial condition; (5) the closeness of the case; (6) the duration of the defendant’s
misconduct; (7) remedial action by the defendant; (8)
the defendant’s motivation for harm; and (9) whether
the defendant attempted to conceal its misconduct.
Id. at 827. An award need not rest on any particular
factor, and not all relevant factors need to weigh in
favor of an enhanced award. See SRI Int’l, Inc. v. Advanced Tech. Labs., Inc., 127 F.3d 1462, 1469 (Fed.
Cir. 1997). While the Read factors are helpful to the
Court’s exercise of its discretion, an analysis focused
on “egregious infringement behavior” is the touchstone for determining an award of enhanced damages
rather than a more rigid, mechanical assessment. See
Finjan, Inc. v. Blue Coat Sys., Inc., No. 13-cv- 3999,
2016 WL 3880774, at *16 (N.D. Cal. July 18, 2016).

53a
2. Discussion
VirnetX requests enhanced damages for the time
period between the first jury verdict in this case (November 6, 2012) and the date of Apple’s iOS 7 redesigns (September 17, 2013). Docket No. 1063 at 1.
VirnetX states that Apple sold 68,785,608 infringing
units during this timeframe and requests that that
the Court enhance damages for this period by 50 percent (from $1.20 a unit to a $1.80 a unit), resulting in
a total damages award of $343,699,314.80. Id. at 1-2.
VirnetX contends that its requested enhancement
mirrors the enhancement ordered by Judge Davis after the 2012 trial and argues that the Read factors
support the enhancement. Id. at 2.
VirnetX argues that Apple’s conduct throughout
the litigation demonstrates that the case was not
close and supports a finding that the second Read factor (whether the infringer investigated the scope of
the patent and formed a good-faith belief that it was
invalid or that it was not infringed), the third Read
factor (the infringer’s behavior as a party to the litigation), and the fifth Read factor (the closeness of the
case) weigh in favor of enhancing damages. Id. at 3.
VirnetX contends that Apple’s non-infringement
defenses for both VPN on Demand and FaceTime
were substantively weak. Id. VirnetX states that the
Federal Circuit noted that Apple’s VPN on Demand
feature operated in precisely the same manner as a
preferred embodiment in the asserted patents. Id.
(See VirnetX, Inc. v. Cisco Sys., Inc., 767 F.3d 1308,
1320-21 (Fed. Cir. 2014)). With respect to FaceTime,
VirnetX contends that Apple’s only defense to

54a
infringement was an argument that FaceTime was
not anonymous. Id. VirnetX states that Apple knew
this argument was incorrect, however, based on Apple’s admissions at the 2012 trial that NATs hide devices and provide a level of anonymity. Id. at 5. VirnetX further argues there was undisputed evidence
that FaceTime was designed to support connection
through NAT routers. Id. Finally, VirnetX contends
that Apple’s changing positions regarding what constituted “anonymity” reflect that Apple did not have a
good-faith belief that FaceTime was non-infringing.
Id. at 6.
VirnetX further argues that the amount of the
jury verdict supports the conclusion that the case was
not close. Id. VirnetX states that the verdict matched
exactly the royalty rate of $1.20 per unit that VirnetX
requested and indicates an “unmistakable rejection”
of the $0.10 per unit royalty rate proposed by Apple.
Id. at 7.
VirnetX also contends that the PTAB proceedings
in this case are irrelevant to the enhancement analysis. Id. VirnetX argues that the PTAB decisions are
irrelevant because they did not issue until after the
willfulness period ended and cannot support a finding
that Apple had a good-faith belief in invalidity at the
time of the willful infringement. Id. VirnetX further
argues that the PTAB proceedings are not relevant
because of the differences between PTAB proceedings
and district court litigation. Id. at 8. VirnetX contends
that district court claim-construction standards are
more tailored to evaluating a party’s actual belief in
invalidity than the PTAB’s standards because,

55a
VirnetX argues, district courts seek to capture the
scope of the actual invention while the PTAB looks to
the broadest reasonable interpretation of the claims.
Id. VirnetX argues that because the PTAB construed
the claims to include a broader scope than what Apple
agreed was the correct scope in the district court proceedings, the PTAB proceedings should have little relevance to Apple’s good-faith belief in the invalidity of
the patents. Id. at 9.
VirnetX next argues that enhancement is warranted because Apple repeatedly attempted to delay
resolution of the case and to increase VirnetX’s litigation costs. Id. at 10. VirnetX contends that Apple
sought to stay the case three times, forced VirnetX to
file five motions to compel, sought summary judgment
on multiple grounds, all of which were denied, twice
moved for a mistrial, sought post-verdict relief on
nearly every conceivable ground, and attempted to inject issues about its own counsel’s and jury consultant’s conflicts of interest mid-trial. Id. at 11. VirnetX
also points to Apple’s attempts to invalidate VirnetX’s
patents at the Patent Office as another example of Apple’s delaying- and cost-raising tactics. Id. VirnetX
states that Apple has petitioned for 18 reexaminations or inter partes reviews (“IPRs”), paid a third
party to file seven additional petitions after its time
bar had expired, and has filed, caused to be filed, or
moved to join 54 post-grant proceedings against VirnetX at the Patent Office. Id. at 11-12. VirnetX argues
that Apple’s conduct is an abuse of the post-grant review system and was primarily an attempt to drive up
VirnetX’s litigation expenses. Id. at 12.

56a
VirnetX argues that Apple further added to the
length and overall cost of the case by filing a motion
to stay after the second trial, even though all the issues presented in its motion occurred before the trial
and even though validity was no longer an issue in the
case because the Federal Circuit had affirmed the
first jury’s finding of no invalidity. Id. VirnetX contends that Apple similarly gambled on the outcome of
the second trial by discussing the prior verdict and
appeal during that trial, then filing a motion for new
trial based on VirnetX’s discussion of the prior trial.
Id. at 13. VirnetX also argues that Apple increased
costs by litigating issues that were no longer in dispute, such as infringement of the “indication” claim
term, which Apple’s own expert admitted was practiced by FaceTime. Id.
VirnetX also contends that Apple has not litigated
this case in good faith. Id. at 14. In support of this
argument, VirnetX points to the testimony of an Apple employee during the 2012 trial who, the Court
found, made gross misrepresentations to the jury. Id.
VirnetX states that Apple witnesses in the second
trial made similar misrepresentations to the jury and
that Apple then sought to exclude these misrepresentations in the retrial. Id. Finally, VirnetX argues that
Apple and its counsel created two serious and potentially disqualifying conflicts of interest by the lateral
hiring of an appellate attorney and the hiring of a jury
consultant, both of whom had previously worked on
this case for VirnetX. Id. at 15. VirnetX contends that
Apple then used these potential conflicts to disrupt
and attempt to derail the trial by repeatedly

57a
requesting advisory opinions while refusing discovery
on these issues. Id. at 15-16.
Next, VirnetX argues that enhancement is warranted because Apple has infringed its patents for
years without taking any real remedial action to stop
infringing. Id. at 16. As to VPN on Demand, VirnetX
states that the original version has been an adjudicated, infringing feature since November 2012. Id.
VirnetX argues that Apple’s redesign of the feature
resulted in no meaningful change to the infringement
analysis, as Apple merely moved the infringing feature from one mode of VPN on Demand to another and
added components its own witnesses admitted had no
utility. Id. As to FaceTime, VirnetX argues that Apple’s redesign was based on rejected claim-construction positions and that the changes are irrelevant for
purposes of infringement. Id. at 17. VirnetX contends
that Apple’s only actual attempt at a remedial measure was its “relay” redesign, which, VirnetX states,
Apple abandoned because of its prohibitive cost. Id. at
18. VirnetX argues that Apple’s redesigns were only
attempts to give the appearance of non- infringement,
which led to increased litigation over slightly different versions of infringing features. Id.
Finally, VirnetX argues that Apple’s size and
wealth favor enhancement. Id. VirnetX states that
Apple is the richest publicly traded company in the
world and argues that substantial enhancement is
necessary to ensure Apple does not continue to willfully infringe upon the intellectual property rights of
others. Id.

58a
In response, Apple contends that VirnetX should
not be awarded enhanced damages because VirnetX
has not proven egregious infringement behavior and
because the Read factors weigh against enhancement.
Docket No. 1066 at 3, 6. Apple contends that its behavior was not egregious because it believed that the
patents-in-suit were invalid—a belief, it argues, that
has been confirmed by the PTAB. Id. at 4. Apple also
argues that it had a good-faith belief in its infringement positions related to both FaceTime and VPN on
Demand. Apple points to the Federal Circuit’s remand as evidence of the reasonableness of its non-infringement arguments for FaceTime. Id. With respect
to VPN on Demand, Apple states that its efforts to
pursue a redesign while appealing the infringement
verdict show that it did not act egregiously. Id. at 5.
Apple argues that each of the Read factors confirms that enhancement is not warranted. Id. at 6.
Apple argues that the first factor weighs against enhancement because there is no evidence in the record
that Apple copied the asserted patents. Id. at 7. Apple
states that its engineers designed and implemented
the accused features well before Apple learned of VirnetX’s patents.
Apple next argues that it investigated the scope
of VirnetX’s patents and formed a good- faith belief
that the patents were invalid and not infringed. Id.
Apple points to the PTAB’s final written decisions
finding each asserted claim invalid and to the Federal
Circuit’s remand as evidence of the reasonableness of
these beliefs. Id. at 8.

59a
As to the third Read factor, which concerns conduct during litigation, Apple argues that it litigated
fairly. Id. Apple contends that VirnetX’s arguments
regarding Apple’s conduct during the 2012 trial were
rejected by Judge Davis when he denied VirnetX’s motion for attorneys’ fees following trial. Id. at 8-9 (citing
Docket No. 732). In Apple’s view, the fact that the
Federal Circuit agreed with Apple and remanded the
case for retrial on both damages and infringement of
FaceTime weighs strongly against enhancement. Id.
at 9. Apple also contends there was nothing abusive
about its use of post-grant proceedings at the Patent
Office and argues that its filing of motions to stay, for
summary judgment, and requests for mistrial was not
improper, noting that VirnetX never moved for
Rule 11 sanctions at any point in the case. Id. at 9-10.
Apple further argues that its prompt handling of the
potential conflicts of interest that arose during the
September 2016 trial demonstrate that Apple and its
counsel handled the case responsibly. Id. at 10-12.
According to Apple, VirnetX’s conduct is also relevant to the enhancement analysis. Apple argues that
VirnetX has engaged in dilatory and cost-increasing
behavior in the litigation and related Patent Office
proceedings. Id. at 12-13. Apple argues that, because
VirnetX filed more than 75 petitions for extension at
the PTAB, filed rejected interlocutory appeals of those
proceedings, sought production of over 860,000 documents and more than 50 depositions in pretrial, and
made improper arguments at the consolidated trial,
VirnetX is the party that engaged in improper behavior. Id. Apple maintains that it acted properly during

60a
a hard-fought case and argues that this factor weighs
against enhancement. Id. at 14-15.
Regarding the fourth Read factor, the size and financial condition of the defendant, Apple argues that
its success is due in large part to its culture of innovation and that the verdict should not be increased
because of that success. Id. at 15.
Apple contends that the fifth Read factor, which
concerns the closeness of the case, should weigh
against enhancement because Apple presented reasonable and justified defenses. Id. For non-infringement, Apple argues that it had a strong defense for
why FaceTime is not anonymous, repeating its arguments related to its motion for judgment as a matter
of law of non-infringement. Id. at 15-16. As to VPN on
Demand, Apple argues that, although the Federal
Circuit found the jury’s verdict of infringement to be
supported by substantial evidence, Apple’s defense
was reasonable and justifiable. Id. at 17. As to invalidity, Apple again notes that it has challenged the validity of the asserted patents at the Patent Office
since before the first trial and that the PTAB has issued final written decisions of unpatentability for
every asserted claim. Id. at 18. Apple argues that
these proceedings are relevant because they were
pending during the willfulness period and therefore
show that Apple had a good-faith belief in its invalidity positions during the relevant timeframe. Id.
Lastly, Apple disputes VirnetX’s assertion that anything can be gleaned about the strength of the case
from the jury’s verdict. Id. at 19.

61a
Regarding the sixth Read factor, the duration of
the misconduct, Apple argues that it promptly redesigned its product and that this factor weighs against
enhancement. Id. at 20. Apple contends that the
amount of time it took to redesign each product,
11 months for VPN on Demand and five months for
FaceTime, was no more than was necessary to implement its redesigns, which required collaboration
among its engineers, management, and legal team to
design and implement. Id. Apple contends that these
facts also support a finding that the seventh Read factor, related to remedial action, weighs against enhancement. Id. at 20-21.
Apple argues that the eighth Read factor weighs
against enhancement because VirnetX presented no
evidence that Apple had a motivation to harm VirnetX. Id. at 2. Apple likewise argues that VirnetX presented no evidence that Apple attempted to conceal
any alleged misconduct and that this ninth factor
should therefore weigh against enhancement. Id.
After carefully considering the Read factors in
light of Apple’s overall conduct, the Court finds that
enhancement is appropriate in this case. Apple’s continued infringement after the 2012 verdict cannot be
credibly justified. See SynQor, Inc. v. Artesyn Techs.,
Inc., 709 F.3d 1365, 1385 (Fed. Cir. 2013) (“The district court found Defendants’ conduct “egregious[ ]” in
continuing, and even increasing, sales in the face of
an infringement verdict. … The district court made
the appropriate determination for an award of enhanced damages.”); see also Imperium IP Holdings
(Cayman), Ltd. v. Samsung Elecs. Co., No. 4:14-CV-

62a
371, 2017 WL 4038884, at *3 (E.D. Tex. Sept. 13,
2017).
A thorough analysis of the Read factors as applied
to this case confirms that enhancement is appropriate. Factor 2, related to investigation and good-faith
belief of no liability, weighs in favor of enhancement.
Apple contends that its good-faith belief in its infringement positions and its post-grant challenges to
the patents’ validity mitigate against an award of enhanced damages, but after the jury’s verdict finding
the claims infringed and valid, its reliance on these
beliefs was no longer reasonable. See Mondis Tech.
Ltd. v. Chimei InnoLux Corp., 822 F. Supp. 2d 639,
652 (E.D. Tex. 2011), aff’d sub nom. Mondis Tech. Ltd.
v. Innolux Corp., 530 F. App’x 959 (Fed. Cir. 2013)
(enhancing damages for post-verdict infringement despite defendant’s argument that it had a good-faith
belief in its appellate positions); see also VirnetX, Inc.
v. Cisco Sys., Inc., 767 F.3d 1308, 1324 (Fed. Cir.
2014) (noting that actions by the PTO are of limited
value when attempting to establish a good faith belief
of invalidity). Factor 5, the closeness of the case, also
favors enhancement, because at the time of the infringement in question Apple had already been adjudicated an infringer of valid patent claims. See Halo,
136 S. Ct. at 1933 (“[C]ulpability is generally measured against the knowledge of the actor at the time of
the challenged conduct”). Factor 4, the infringer’s size
and financial condition, also favors enhancement, as
it is undisputed that Apple is one of the largest and
most financially successful companies in the world.
Although Apple now argues that this factor is neutral,
it previously conceded that the factor should weigh

63a
slightly in favor of enhancement. See Docket No. 18 in
Case No. 6:13-cv-211 at 12.
Factor 3, the infringer’s litigation conduct, weighs
slightly in favor of enhancement. Apple repeatedly
sought either to stay the litigation pending post-grant
proceedings or to inject evidence of the proceedings
into the trial, even after receiving adverse rulings
from the Court and even after few, if any, relevant
facts had changed since its last request, and despite
the fact that invalidity was no longer in the case. See,
e.g., Docket Nos. 32, 499, and 515 in Case No. 6:12-cv855. Similarly, though Apple moved expeditiously to
remedy the potential conflicts that arose prior to and
at the beginning of trial, Apple then sought multiple
advisory opinions on these issues in the middle of
trial. See, e.g., Docket No. 1004.
Factors 6, 7, and 9—the duration of the misconduct, the remedial action taken by the infringer, and
attempts to conceal alleged misconduct—are neutral,
as Apple moved relatively quickly to redesign its products after the verdict but abandoned one of its redesigns after determining it was economically unfeasible. See Docket No. 438 in Case No. 6:12-cv-855
(“Trial Tr. 1/28/16”) at 136:4-12; Docket No. 442 in
Case No. 6:12-cv-855 (“Trial Tr. 2/1/16”) at 95:2196:14.
As to Factors 1 and 8, VirnetX has not presented
any evidence of copying or motivation for harm. The
parties disagree about the weight this lack of evidence
should be given. VirnetX argues that the lack of evidence in the record for these two factors does not mitigate against enhancement and states that the Court

64a
should find the factors neutral. Docket No. 1067 at 12.
VirnetX contends that courts in this district have
found these factors neutral under similar circumstances. Id. (citing Georgetown Rail Equip. Co.,
No. 6:13-CV-366, 2016 WL 3346084, at *20; Internet
Machines LLC v. Alienware Corp., No. 6:10-CV-23,
2013 WL 4056282, at *20 (E.D. Tex. June 19, 2013).
Apple contends that these factors should weigh
against enhancement. Docket No. 1066 at 7. Apple
states that the record shows that its engineers independently designed the accused technology before
learning of the patents-in-suit. Docket No. 1070 at 3.
Apple argues that its independent design is a mitigating factor and that “disregard[ing] the mitigating impact of factors that weigh against enhancement, such
as this, would be legal error.” Id. Further, Apple
states that, for the ninth factor, attempts to conceal
alleged misconduct, not only did Apple not conceal
any alleged misconduct, but Apple produced extensive
discovery to VirnetX, including over 860,000 documents, and made fact witnesses available for over
50 depositions.
The Court finds that these factors are neutral.
Courts often find these factors neutral when there is
no evidence of copying or motivation to harm. See, e.g.,
Boston Sci. Corp. v. Cordis Corp., 838 F. Supp. 2d 259,
281 (D. Del. 2012), aff’d, 497 F. App’x 69 (Fed. Cir.
2013); Georgetown Rail, No. 6:13-CV-366, 2016 WL
3346084, at *20; Internet Machines, 2013 WL
4056282, at *20; Spectralytics, Inc. v. Cordis Corp.,
834 F. Supp. 2d 920, 924 (D. Minn. 2011), aff’d, 485 F.
App’x 437 (Fed. Cir. 2012); PACT XPP Techs., AG v.
Xilinx, Inc., No. 2:07-CV-563-RSP, 2013 WL 4801885,

65a
at *1 (E.D. Tex. Aug. 30, 2013). Apple has not shown
any behavior on its part relating to these factors that
mitigates against an award of enhanced damages. Accordingly, Factors 1 and 8 are neutral.
As for the amount of enhancement, the Court has
discretion to “increase the damages up to three times
the amount found or assessed.” 35 U.S.C. § 284. Having weighed the Read factors and having considered
the totality of the circumstances in this case, the
Court finds that a 50 percent enhancement is appropriate. As Judge Davis noted when setting the ongoing royalty rate after the 2012 verdict, Apple’s continued sales of the infringing products constitutes willful
infringement. Docket No. 48 in Case No. 6:13-cv-211.
Although Judge Davis’s ongoing royalty order was
vacated by the Federal Circuit due to a rejection of the
VirnetX’s royalty base, his ruling on enhancement is
still instructive. Judge Davis found that two of the
nine Read factors strongly favored enhancement, two
slightly favored enhancement, and the remaining five
factors were neutral. Id. at 8-9. Here, the Court finds
three factors favoring enhancement, one factor
slightly favoring enhancement, and five being neutral. The Court has credited Apple’s remedial
measures, a fact that was not fully developed when
Judge Davis’s order issued, but has also found several
instances of litigation misconduct, which had not occurred at the time of Judge Davis’s order. See id. On
balance, the Court finds no compelling reason to deviate from the enhancement amount previously ordered
by Judge Davis.

66a
Moreover, this enhancement is in line with courts
both within this district and in others when analyzing
similar factual circumstances. See Mondis, 822 F.
Supp. 2d at 653 (doubling the royalty rate by two
times); Internet Machs. LLC v. Alienware Corp., at
*21 (E.D. Tex. June 19, 2013) (enhancing the royalty
rate by 50 percent); Affinity Labs, 783 F. Supp. 2d at
905 (enhancing the ongoing royalty rate by 33 percent); Imperium IP Holdings (Cayman), Ltd. v. Samsung Elecs. Co., No. 4:14-CV-371, 2017 WL 4038884,
at *3 (E.D. Tex. Sept. 13, 2017) (enhancing the royalty
rate by 50 percent); Golden Hour Data Sys., Inc. v.
emsCharts, Inc., No. 2:06-CV-381-JRG, 2014 WL
8708239, at *1 (E.D. Tex. Mar. 31, 2014) (enhancing
damages by 50 percent where three Read factors favor
enhancement); Power Integrations, Inc. v. Fairchild
Semiconductor Int’l, Inc., 762 F. Supp. 2d 710, 725 (D.
Del. 2011), vacated on other grounds, 711 F.3d 1348
(Fed. Cir. 2013) (doubling damages where five Read
factors favored enhancement).
3. Conclusion
Enhancement is appropriate here to address Apple’s willful infringement and conduct. Having found
three factors favoring enhancement, one factor
slightly favoring enhancement, and five factors being
neutral, and having considered Apple’s post-verdict
infringement, the Court is satisfied that a 50 percent
enhancement of the damages for this timeframe is appropriate. Trebling damages for the agreed willfulness period would result in an enhancement of
$165,085,459 for a total damages award of
$467,513,409. However, given the totality of the

67a
circumstances and in light of the size of the award
VirnetX is otherwise due, enhancing damages to the
maximum extent allowable under § 284 is not warranted, although some lesser but meaningful enhancement is appropriate in light of Apple’s willful infringement. Accordingly, the royalty rate applied to
the 68,785,608 units sold during the willfulness period will be increased 50 percent, from $1.20 to $1.80.
VirnetX is hereby awarded enhanced damages in the
amount of $41,271,364.80 against Apple and shall
have and recover from Apple the total sum of
$343,699,314.80 in pre-interest damages.
B. Attorneys’ Fees
VirnetX requests that the Court declare this case
exceptional under 35 U.S.C. § 285 and award attorneys’ fees. Docket No. 1063 at 19. VirnetX has not provided an accounting of the attorneys’ fees incurred.
1. Legal Standard
“The court in exceptional cases may award reasonable attorney fees to the prevailing party.” 35
U.S.C. § 285. Prior to the Supreme Court’s recent decision in Octane Fitness, LLC v. ICON Health & Fitness, Inc., 134 S. Ct. 1749 (2014), Federal Circuit precedent required that the prevailing party produce clear
and convincing evidence that the opposing party’s
claims were objectively baseless and brought with
subjective bad faith in order to declare a case exceptional. Brooks Furniture Mfg., Inc. v. Dutailier Int’l,
Inc., 393 F.3d 1378, 1381-82 (Fed. Cir. 2005). Rejecting both the clear and convincing evidence standard
and the two-part test, the Supreme Court has since

68a
held that an exceptional case under § 285 is “simply
one that stands out from others with respect to the
substantive strength of a party’s litigating position
(concerning both the governing law and the facts of
the case) or the unreasonable manner in which the
case was litigated.” Octane Fitness, 134 S. Ct. at 1756.
District courts “may determine whether a case is
‘exceptional’ in the case-by-case exercise of their discretion, considering the totality of the circumstances.”
Id. at 1757. “[A] case presenting either subjective bad
faith or exceptionally meritless claims may sufficiently set itself apart from mine-run cases to warrant
a fee award.” Id. at 1756. “The predominant factors to
be considered, though not exclusive, are those identified in Brooks Furniture: bad faith litigation, objectively unreasonable positions, inequitable conduct before the PTO, litigation misconduct, and (in the case
of an accused infringer) willful infringement.” Stragent, LLC v. Intel Corp., No. 6:11-cv-421, 2014 WL
6756304, at *3 (E.D. Tex. Aug. 6, 2014) (Dyk, J., sitting by designation); see also Octane Fitness, 134 S.
Ct. at 1756 n.6 (“[I]n determining whether to award
fees under a similar provision in the Copyright Act,
district courts could consider a ‘nonexclusive’ list of
‘factors,’ including ‘frivolousness, motivation, objective unreasonableness (both in the factual and legal
components of the case) and the need in particular circumstances to advance considerations of compensation and deterrence.’ “) (quoting Fogerty v. Fantasy,
Inc., 510 U.S. 517, 535 n.19 (1994)). “Ultimately, a
party’s entitlement to attorney fees need only be
proved by a preponderance of the evidence.” DietGoal
Innovations LLC v. Chipotle Mexican Grill, Inc.,

69a
No. 2:12-cv-764, 2015 WL 1284826, at *1 (E.D. Tex.
March 20, 2015) (Bryson, J., sitting by designation)
(citing Octane Fitness, 134 S. Ct. at 1758).
2. Discussion
VirnetX argues that this is an exceptional case
under § 285. Docket No. 1063 at 19. VirnetX contends
that cases in which willfulness is found are presumptively exceptional and that there is no reason to depart from that presumption in this case. Id.
VirnetX also asserts that an award of fees is supported by Apple’s course of conduct in this case. Id. at
20. VirnetX again states that Apple’s defenses were
weak and designed to delay the resolution of this case
and to drive up VirnetX’s litigation costs. Id. As examples, VirnetX points to Apple’s filing of over 50
post-grant proceedings, the shifting non-infringement
positions of Apple and its witnesses, and a cross-country deposition that lasted less than half an hour. Id.
VirnetX contends that the exceptional nature of the
case is also exemplified by Apple’s counsel’s hiring of
a jury consultant and lateral hiring of an appellate
attorney who had both previously worked on this case
for VirnetX and by its attempt to force VirnetX to deal
with these conflict issues mid-trial. Id. VirnetX argues that fees should be awarded to deter Apple’s
“multi-forum kitchen-sink litigation tactics” in the future. Id.
In response, Apple argues that, viewed under the
totality of the circumstances, this is not an exceptional case. Docket No. 1066 at 23. Apple again contends that its defenses were substantively strong, as

70a
evidenced by the Federal Circuit’s remand, this
Court’s denial of VirnetX’s summary judgment motions, and the PTAB’s final written decisions of unpatentability of the asserted claims. Id. at 24. Apple
also argues that VirnetX’s allegations of litigation
misconduct are unfounded, stating that Apple’s participation in PTO proceedings was proper, that its
witnesses did not misrepresent facts to the jury, and
that its routine litigation activity does not amount to
an improper attempt to delay the litigation. Id. at 25.
Apple also argues that the conduct of both parties
is relevant to the litigation and states that VirnetX
has engaged in obstructionist tactics at the PTO and
has increased the costs of this litigation through unnecessarily burdensome discovery. Id. at 26 (citing
Gaymar Indus., Inc. v. Cincinnati Sub-Zero Prods.,
Inc., 790 F.3d 1369, 1373 (Fed. Cir. 2015)). Apple also
states that VirnetX’s attempt to collect a judgment on
patents that have been held invalid by the PTAB
should weigh against an award of attorneys’ fees. Id.
VirnetX is entitled to its attorneys’ fees for the
September 2016 trial. As stated above, Apple’s continued infringement after the 2012 verdict was willful
and warrants enhanced damages. See supra § III.A.2.
While a finding of willful infringement for purposes of
enhanced damages does not necessarily require a
finding that a case is exceptional under § 285, “the
willfulness of the infringement by the accused infringer may be a sufficient basis in a particular case
for finding the case ‘exceptional’ for purposes of
awarding attorney fees to the prevailing patent
owner.” Golight, Inc. v. Wal-Mart Stores, Inc., 355

71a
F.3d 1327, 1340 (Fed. Cir. 2004); see Brooktree Corp.
v. Advanced Micro Devices, Inc., 977 F.2d 1555, 1582
(Fed. Cir. 1992); see also Serio-US Indus., Inc. v. Plastic Recovery Techs. Corp., 459 F.3d 1311, 1321 (Fed.
Cir. 2006) (“Exceptional cases usually feature some
material, inappropriate conduct related to the matter
in litigation, such as willful infringement, fraud or inequitable conduct ….”).
Further, Apple’s litigation conduct supports an
award of attorneys’ fees. As stated above in the context of the Read factors, Apple repeatedly sought either to stay the litigation pending its post-grant proceedings or to inject evidence of those proceedings into
the trial, even after receiving adverse rulings from the
Court. See Docket Nos. 32, 499, and 518 in Case
No. 6:12-cv-855. Several of these requests were made
even though few relevant facts had changed since the
previous request was denied and despite the fact that
invalidity was no longer in the case after the remand.
See, e.g., Docket Nos. 499 and 518 in Case No. 6:12cv-855.
Similarly, Apple’s handling of the conflicts issues
that arose on the eve of trial favors a finding that the
case is exceptional. As to the jury consultant who
worked for VirnetX during the first trial and was
hired by Apple for the third trial, Apple states that
before it hired him, Apple received a statement that
he had no conflicts on the case. Docket No. 1066-3.
However, Apple’s failure to ensure that its consultant
actually had no conflicts unnecessarily complicated
the trial. Further, Apple asked the Court for several
advisory opinions regarding either a potential

72a
mistrial or disqualification of counsel because of the
conflict, all the while refusing to give VirnetX even
basic discovery on the matter. See Trial Tr. 9/26/16
AM at 24:18-22; Trial Tr. 9/29/16 PM at 83:1-104:5.
Likewise, Apple sought multiple advisory opinions on
the potential conflict created by VirnetX’s appellate
counsel joining Apple’s counsel’s firm. See Docket
No. 994; Docket No. 1004; Trial Tr. 9/29/16 PM at
83:1-104:5. While the Court finds nothing improper
about VirnetX’s former appellate counsel joining Apple’s counsel’s firm, Apple’s haste in seeking advisory
opinions, combined with its delay in providing VirnetX with the relevant facts, demonstrates a level of
gamesmanship regarding conflicts it created that the
Court finds weighs in favor of a finding of an exceptional case.
Considering the totality of the circumstances, the
Court finds the case to be exceptional as to the third
trial. However, the Court notes that Judge Davis declined to award attorneys’ fees after the first trial and
that a new trial was granted after the second trial in
part because of VirnetX’s own repeated references to
the first jury’s verdict. See Docket No. 732 at 44;
Docket No. 893 at 1. Accordingly, the Court will
award VirnetX only those attorneys’ fees that are reasonably related to the September 2016 trial.
3. Conclusion
For the reasons stated above, VirnetX’s request
for its attorneys’ fees is GRANTED as to fees reasonably related to the September 2016 trial. The parties
are ORDERED to meet and confer as to which expenses fall within that category and to file a notice

73a
detailing the agreed amount of fees or any disputes
within fourteen (14) days of this Order.
C. Costs
In a patent case, Federal Circuit law governs the
determination of which party has prevailed. Manildra
Milling Corp. v. Ogilvie Mills, Inc., 76 F.3d 1178, 1182
(Fed. Cir. 1996). To be the “prevailing party,” the Federal Circuit requires: (1) that the party have “received
at least some relief on the merits,” and (2) “[t]hat relief must materially alter the legal relationship between the parties by modifying one party’s behavior
in a way that ‘directly benefits’ the opposing party.”
Shum v. Intel Corp., 629 F.3d 1360, 1366-67 (Fed. Cir.
2010) (citations omitted). A party does not need to
prevail on all claims to qualify as the prevailing party.
SSL Servs., LLC v. Citrix Sys., Inc., 769 F.3d 1073,
1086 (Fed. Cir. 2014).
Apple disputes that VirnetX is the prevailing
party because the asserted patents are subject to final
written decisions of unpatentability issued by the
PTAB. Docket No. 1066 at 29. However, Apple does
not contest that costs are warranted if judgment is entered for VirnetX. Id.
As VirnetX succeeded on each of its claims tried
to the jury, it is the prevailing party in this litigation
and is entitled to its costs. The parties are ORDERED to meet and confer to resolve any disputes
surrounding the bill of costs and to submit an agreed
bill of costs or any remaining disputes to the Court
within fourteen (14) days of this Order.

74a
D. Pre-Judgment Interest
Pre-judgment interest should typically “be
awarded where necessary to afford the plaintiff full
compensation for the infringement.” Gen. Motors
Corp. v. Devex Corp., 461 U.S. 648, 655 (1983). “[A]n
award of prejudgment interest is necessary to ensure
that the patent owner is placed in as good a position
as he would have been in had the infringer entered
into a reasonable royalty agreement.” Id. (citation
omitted); see also Beatrice Foods Co. v. New England
Printing & Lithographing Co., 923 F.2d 1576, 1580
(Fed. Cir. 1991); Bio-Rad Labs. v. Nicolet Instrument
Corp., 807 F.2d 964, 967 (Fed. Cir. 1986). Except in
unusual circumstances, a prevailing patent owner is
entitled to pre-judgment interest on the damages
awarded because complete compensation includes the
“forgone use of the money between the time of infringement and the date of judgment.” Gen. Motors,
461 U.S. at 655-56.
VirnetX requests pre-judgment interest at the
prime rate compounded annually. Docket No. 1063 at
22. Apple contends that the Court should not award
pre-judgment interest because the jury’s award more
than compensates VirnetX and because the PTAB has
issued final written decisions of unpatentability for
each of the patents-in-suit. Docket No. 1066 at 28. Apple also argues that if the Court grants VirnetX prejudgment interest, it should be calculated as if VirnetX received the entire verdict as a lump sum, as
VirnetX requests, but as a running royalty instead.
Id.

75a
The Court finds that no unusual circumstances
exist here that preclude an award of pre- judgment
interest. Consistent with the practice in this district,
the Court ORDERS that VirnetX be awarded prejudgment interest at the prime rate compounded annually, to be applied on the entire jury award beginning at the date of the hypothetical negotiation. See
DDR Holdings, LLC v. Hotels.com, L.P., No. 2:06-cv42, 2013 WL 3187163 at *1-*2 (E.D. Tex. June 20,
2013).
E. Post-Judgment Interest
VirnetX also requests post-judgment interest under 28 U.S.C. § 1961. Docket No. 1063 at 23. VirnetX
states that it is entitled to post-judgment interest that
is “computed daily, at a rate equal to the weekly average 1-year constant maturity Treasury yield, as published by the Board of Governors of the Federal Reserve System, for the calendar week preceding the
date of judgment, and [that] shall be compounded annually.” Id. Apple again disputes that VirnetX is the
prevailing party because the asserted patents are
subject to final written decisions of unpatentability issued by the PTAB. Docket No. 1066 at 29. However,
VirnetX, as the prevailing party, is entitled to postjudgment interest. Accordingly, the Court ORDERS
Apple to pay VirnetX post-judgment interest at the
statutory rate upon entry of judgment pursuant 28
U.S.C. § 1961.
CONCLUSION
For the reasons stated above, the Court ORDERS
that:

76a


Apple’s Rule 50(a) Motion for Judgment as a Matter of Law on Damages (Docket No. 1018) and is
DENIED-AS-MOOT;



Apple’s Rule 50(a) Motion for Judgment as a Matter of Law of No Infringement (Docket No. 1019)
is DENIED-AS-MOOT;



VirnetX’s request in its Post-Trial Brief Regarding Willfulness (Docket No. 1047) is GRANTED;



Apple’s Omnibus Motion for Judgment as a Matter of Law Under Rule 50(b) (Docket No. 1062) is
DENIED; and



VirnetX’s Motion for Entry of Judgment and Equitable Relief (Docket No. 1063) is GRANTED.

So ORDERED and SIGNED this 29th day of
September, 2017.

/s/ Robert W. Schroeder III
ROBERT W. SCHROEDER III
UNITED STATES DISTRICT JUDGE

77a
APPENDIX C
United States Court of Appeals
for the Federal Circuit
VIRNETX, INC.,
Plaintiff-Appellee,
AND

SCIENCE APPLICATIONS INTERNATIONAL
CORPORATION,
Plaintiff-Appellee,
v.
CISCO SYSTEMS, INC.,
Defendant,
AND

APPLE INC.,
Defendant-Appellant.
2013-1489
Appeal from the United States District Court for
the Eastern District of Texas in No. 10-CV-0417,
Chief Judge Leonard Davis.
Decided: September 16, 2014

78a
WILLIAM F. LEE, Wilmer Cutler Pickering Hale
and Dorr, LLP, of Boston, Massachusetts, argued for
defendant-appellant. With him on the brief were
MARK C. FLEMING, LAUREN B. FLETCHER, and REBECCA BACT, of Boston, Massachusetts, and JONATHAN G. CEDARBAUM, BRITTANY BLUEITT AMADI, and
LEAH LITMAN, of Washington, DC. Of counsel on the
brief was DANNY L. WILLIAMS, Williams, Morgan &
Amerson, P.C., of Houston, Texas.
J. MICHAEL JAKES, Finnegan, Henderson,
Farabow, Garrett & Dunner, LLP, of Washington,
DC, argued for plaintiffs-appellees. With him on the
brief for Virnetx, Inc. were KARA F. STOLL and
SRIKALA ATLURI, of Washington, DC, and BENJAMIN
R. SCHLESINGER, of Atlanta, Georgia. Of counsel on
the brief were BRADLEY W. CALDWELL, JASON D. CASSADY, and JOHN AUSTIN CURRY, Caldwell, Cassady &
Curry, of Dallas, Texas. On the brief for Science Applications International Corporation were DONALD
URRABAZO, ARTURO PADILLA, and RONALD WIELKOPOLSKI, Urrabazo Law, P.C., of Los Angeles, California; and ANDY TINDEL, Mann, Tindel & Thompson, of
Tyler, Texas.

79a
Before PROST,1 Chief Judge and CHEN, Circuit
Judge.2
PROST, Chief Judge.
Apple Inc. appeals from a final judgment of the
U.S. District Court for the Eastern District of Texas,
in which a jury found that Apple infringed U.S. Patent Nos. 6,502,135 (“’135 patent”), 7,418,504 (“’504
patent”), 7,490,151 (“’151 patent”), and 7,921,211
(“’211 patent”). The jury further found that none of
the infringed claims were invalid and awarded damages to plaintiffs-appellees VirnetX, Inc. and Science
Applications International Corporation (“SAIC”) in
the amount of $368,160,000.
For the reasons that follow, we affirm the jury’s
findings that none of the asserted claims are invalid
and that many of the asserted claims of the ’135 and
’151 patents are infringed by Apple’s VPN On Demand product. We also affirm the district court’s exclusion of evidence relating to the reexamination of
the patents-in-suit. However, we reverse the jury’s
finding that the VPN On Demand product infringes
claim 1 of the ’151 patent under the doctrine of equivalents. We also reverse the district court’s construction of the claim term “secure communication link” in
the ’504 and ’211 patents and remand for further proceedings to determine whether the FaceTime feature
Sharon Prost assumed the position of Chief Judge on May 31,
2014.

1

Randall R. Rader, who retired from the position of Circuit
Judge on June 30, 2014, did not participate in this decision.

2

80a
infringes those patents under the correct claim construction. Finally, we vacate the jury’s damages
award and remand for further proceedings consistent
with this opinion.
BACKGROUND
The patents at issue claim technology for providing security over networks such as the Internet. The
patents assert priority to applications filed in the
1990s, originally assigned to SAIC. VirnetX, a Nevada-based software development and licensing enterprise, acquired the patents from SAIC in 2006.
I. The ’504 and ’211 Patents and FaceTime
The ’504 and ’211 patents share a common specification disclosing a domain name service (“DNS”)
system that resolves domain names and facilitates establishing “secure communication links.” ’504 patent
col. 55 ll. 49-50. In one embodiment, an application on
the client computer sends a query including the domain name to a “secure domain name service,” which
contains a database of secure domain names and corresponding secure network addresses. Id. at col. 50 ll.
54-57, col. 51 ll. 11-19, col. 51 ll. 29-32. This allows a
user to establish a secure communication link between a client computer and a secure target network
address. Id. at col. 51 ll. 34-40.
Representative claim 1 of the ’504 patent recites:

81a
1. A system for providing a domain name
service for establishing a secure communication link, the system comprising:
a domain name service system configured to
be connected to a communication network, to
store a plurality of domain names and corresponding network addresses, to receive a
query for a network address, and to comprise
an indication that the domain name service
system supports establishing a secure communication link.
Id. at col. 55 ll. 49-56.
Before the district court, VirnetX accused Apple
of infringement based on its “FaceTime” feature. Specifically, VirnetX accused Apple’s servers that run
FaceTime on Apple’s iPhone, iPod, iPad (collectively,
“iOS devices”), and Mac computers of infringing
claims 1, 2, 5, 16, 21, and 27 of the ’504 patent as well
as claims 36, 37, 47, and 51 of the ’211 patent. In operation, FaceTime allows secure video calling between select Apple devices. J.A. 1443. To use
FaceTime, a caller enters an intended recipient’s email address or telephone number into the caller’s device (e.g., iPhone). J.A. 1451-52. An invitation is then
sent to Apple’s FaceTime server, which forwards the
invitation to a network address translator (“NAT”)
which, in turn, readdresses the invitation and sends
it on to the receiving device. J.A. 1821, 1824-25. The
recipient may then accept or decline the call. J.A.
1453. If accepted, FaceTime servers establish a secure
FaceTime call. J.A. 1453. Once connected, the devices
transmit audio/video data as packets across the

82a
secure communication path without passing through
the FaceTime server. J.A. 1820, 1825.
II. The ’135 and ’151 Patents and VPN On Demand
A conventional DNS resolves domain names (e.g.,
“Yahoo.com”) into Internet Protocol (“IP”) addresses.
See ’135 patent col. 37 ll. 22-27. A user’s web browser
then utilizes the IP address to request a website. Id.
at col. 37 ll. 24-29.
The ’135 and ’151 patents share a common specification disclosing a system in which, instead of a conventional DNS receiving the request, a DNS proxy intercepts it and determines whether the request is for
a secure site. Id. at col. 38 ll. 23-25. If the proxy determines that a request is for a secure site, the system
automatically initiates a virtual private network
(“VPN”) between the proxy and the secure site. Id. at
col. 38 ll. 30-33. If the browser determines that the
request was for a non-secure website, then the DNS
proxy forwards the request to a conventional DNS for
resolution. Id. at col. 38 ll. 43-47.
Representative claim 1 of the ’135 patent recites:
1. A method of transparently creating a virtual private network (VPN) between a client
computer and a target computer, comprising
the steps of:
(1) generating from the client computer a Domain Name Service (DNS) request that requests an IP address corresponding to a

83a
domain name associated with the target computer;
(2) determining whether the DNS request
transmitted in step (1) is requesting access to
a secure web site; and
(3) in response to determining that the DNS
request in step (2) is requesting access to a secure target web site, automatically initiating
the VPN between the client computer and the
target computer.
Id. at col. 47 ll. 20-32.
Claims 1 and 13 of the ’151 patent are similar to
claim 1 of the ’135 patent except that they recite initiating an “encrypted channel” and creating a “secure
channel,” respectively, instead of creating a “VPN.”
’151 patent col. 46 ll. 55-67, col. 48 ll. 18-29.
Before the district court, VirnetX accused Apple’s
iPhone, iPad, and iPod Touch of infringing claims 1,
3, 7, and 8 of the ’135 patent and claims 1 and 13 of
the ’151 patent because they include a feature called
“VPN On Demand.” When a user enters a domain
name into the browser of an iOS device, a DNS request is generated. J.A. 1393-94. VPN On Demand receives the request and checks a list of domain names
for which a VPN connection should be established,
known as a “configuration file.” J.A. 1377. If the entered domain name matches a domain name in the
configuration file, VPN On Demand contacts a VPN
server to authenticate the user and, if successful, automatically establishes a VPN between the user’s

84a
browser and the target computer with which the requested domain name is associated. J.A. 1377-78,
1396-98.
III. Five-Day Jury Trial and Post-Trial Motions
On August 11, 2010, VirnetX filed this infringement action, alleging that Apple’s FaceTime servers
infringe certain claims of the ’504 and ’211 patents,
and that Apple’s VPN On Demand feature infringes
certain claims of the ’135 and ’151 patents. Apple responded that FaceTime and VPN On Demand do not
infringe, and that the asserted claims were invalid as
anticipated by a 1996 publication by Takahiro Kiuchi
et al. (“Kiuchi”).
On April 25, 2012, the district court construed disputed claim terms, and a jury trial commenced on October 31, 2012. After a five-day trial, the jury returned
its verdict, finding all of the asserted claims valid and
infringed. The jury awarded VirnetX $368,160,000 in
reasonable royalty damages. Apple moved for judgment as a matter of law (“JMOL”) or, alternatively,
for a new trial or remittitur. On February 26, 2013,
the district court denied Apple’s motions. VirnetX,
Inc. v. Apple Inc., 925 F. Supp. 2d 816 (E.D. Tex.
2013).
Apple now appeals the denial of its post-trial motion for JMOL or a new trial. This court has jurisdiction under 28 U.S.C. § 1295(a)(1).

85a
DISCUSSION
I. Claim Construction
On appeal, Apple argues that the district court
erred in construing the terms “domain name” and “secure communication link,” both recited in the ’504 and
’211 patents. For the reasons that follow, we affirm
the construction of “domain name” and reverse the
construction of “secure communication link.”
Claim construction is a question of law that we
review de novo. Lighting Ballast Control LLC v.
Philips Elecs. N. Am. Corp., 744 F.3d 1272, 1276-77
(Fed. Cir. 2014) (en banc); Cybor Corp. v. FAS Techs.,
Inc., 138 F.3d 1448, 1456 (Fed. Cir. 1998) (en banc).
The process of construing a claim term begins with
the words of the claims themselves. See Vitronics
Corp. v. Conceptronic, Inc., 90 F.3d 1576, 1582 (Fed.
Cir. 1996); Phillips v. AWH Corp., 415 F.3d 1303,
1312-14 (Fed. Cir. 2005) (en banc). However, the
claims “must be read in view of the specification, of
which they are a part.” Phillips, 415 F.3d at 1315
(quoting Markman v. Westview Instruments, Inc., 52
F.3d 967, 979 (Fed. Cir. 1995) (en banc), aff’d 517 U.S.
370 (1996)). Additionally, the doctrine of claim differentiation disfavors reading a limitation from a dependent claim into an independent claim. See InterDigital Commc’ns, LLC v. Int’l Trade Comm’n, 690
F.3d 1318, 1324 (Fed. Cir. 2012). Although courts are
permitted to consider extrinsic evidence like expert
testimony, dictionaries, and treatises, such evidence
is generally of less significance than the intrinsic record. Phillips, 415 F.3d at 1317 (citing C.R. Bard, Inc.

86a
v. U.S. Surgical Corp., 388 F.3d 858, 862 (Fed. Cir.
2004)).
A. “Domain Name”
The district court construed “domain name” as “a
name corresponding to an IP address.” Memorandum
Opinion & Order at 16, VirnetX, Inc. v. Cisco Sys. Inc.,
No. 6:10-cv-416 (E.D. Tex. Apr. 25, 2012), ECF No.
266 (“Claim Construction Order”). Apple argues, as it
did below, that the proper construction is “a hierarchical sequence of words in decreasing order of specificity that corresponds to a numerical IP address.” Apple insists that its construction represents the plain
and ordinary meaning of the term, relying primarily
on a technical dictionary definition and several examples in the specification (e.g., “Yahoo.com”). We disagree. Intrinsic evidence supports the district court’s
construction of “domain name.” The specification of
the ’504 and ’211 patents suggests the use of the invention for secure communications between application programs like “video conferencing, e-mail, word
processing programs, telephony, and the like.” ’504
patent col. 21 ll. 27-29. The disclosure of such applications demonstrates that the inventors did not intend to limit “domain name” to the particular formatting limitations of websites sought by Apple, i.e., a
top-level domain, second-level domain, and host
name.
Additionally, fundamental principles of claim differentiation disfavor reading Apple’s hierarchical limitation into the independent claims. Dependent
claims in both patents require that “at least one” of
the domain names stored by the system comprise a

87a
top-level domain name. See, e.g., ’504 patent col. 55 ll.
57-59 (“The system of claim 1, wherein at least one of
the plurality of domain names comprises a top-level
domain name.”); ’211 patent col. 57 ll. 47-50 (“The
non-transitory machine-readable medium of claim 36,
wherein the instructions comprise code for storing the
plurality of domain names and corresponding network addresses including at least one top-level domain name.”). The specific limitation of hierarchical
formatting in the dependent claims strongly suggests
that the independent claims contemplate domain
names both with and without the hierarchical format
exemplified by “Yahoo.com.” See InterDigital, 690
F.3d at 1324 (“The doctrine of claim differentiation is
at its strongest … ‘where the limitation that is sought
to be “read into” an independent claim already appears in a dependent claim.’” (quoting LiebelFlarsheim Co. v. Medrad, Inc., 358 F.3d 898, 910 (Fed.
Cir. 2004))).
Such intrinsic evidence is not outweighed by the
extrinsic evidence of one dictionary definition. This is
particularly true here, where the dictionary definition
seems to contemplate web addresses on the Internet,
while the specification makes clear that the claim
term in question is not so limited. See J.A. 6139-40.
Thus, we affirm the district court’s construction of the
term “domain name” as “a name corresponding to an
IP address.”
B. “Secure Communication Link”
The district court construed “secure communication link” as “a direct communication link that provides data security.” Claim Construction Order at 13.

88a
Apple argues that this term should be construed consistent with “VPN,” which the district court construed
to require not only data security but also anonymity.3
As an initial matter, we note that there is no dispute that the word “secure” does not have a plain and
ordinary meaning in this context, and so must be defined by reference to the specification. See Oral Arg.
31:50-32:40,
available
at
http://www.cafc.
uscourts.gov/oral-argument-recordings/13-1489/all
(acknowledgement by VirnetX’s counsel that construction of “secure” requires consideration of the
specification).
Moreover, we agree with Apple that, when read in
light of the entire specification, the term “secure communication link” requires anonymity. Indeed, the addition of anonymity is presented as one of the primary
inventive contributions of the patent. For example,
the Background of the Invention states that “[a] tremendous variety of methods have been proposed and
implemented to provide security and anonymity for
communications over the Internet.” ’504 patent col. 1
ll. 32-35 (emphasis added). It goes on to define these
two concepts as counterpart safeguards against
eavesdropping that could occur while two computer
terminals communicate over the Internet. Id. at col. 1
ll. 38-54. Security in this context refers to protection
of data itself, to preserve the secrecy of its contents,
The district court construed VPN to mean “a network of computers which privately and directly communicate with each
other by encrypting traffic on insecure paths between the computers where the communication is both secure and anonymous.” Claim Construction Order at 8.

3

89a
while anonymity refers to preventing an eavesdropper from discovering the identity of a participating
terminal. Id. at col. 1 ll. 40-54.
Having thus framed the problem, the patent (as
expected) proposes a solution. Specifically, the Summary of the Invention begins by explaining how the
invention improves security by using a “two-layer encryption format” known as the Tunneled Agile Routing Protocol, or TARP. Id. at col. 3 ll. 14-17. First, an
“inner layer” secures the data itself, id. at col. 4 ll. 57, and then a second “outer layer” conceals the data’s
“true destination,” id. at col. 3 ll. 34-35. The fact that
the Summary of the Invention gives primacy to these
attributes strongly indicates that the invention requires more than just data security. See, e.g., C.R.
Bard, 388 F.3d at 864 (giving particular weight to
statements in the Summary of the Invention because
“[s]tatements that describe the invention as a whole,
rather than statements that describe only preferred
embodiments, are more likely to support a limiting
definition of a claim term”).
Consistent with this emphasis, the Detailed Description states that “the message payload is embedded behind an inner layer of encryption” and “[e]ach
TARP packet’s true destination is concealed behind
an outer layer of encryption.” ’504 patent col. 9 ll. 6061, col. 11 ll. 2-4. The concealment requirement appears throughout the specification and is implicated
in every embodiment associated with the “two-layer
encryption” or TARP VPN. The fact that anonymity is
“repeatedly and consistently” used to characterize the
invention strongly suggests that it should be read as

90a
part of the claim. See Eon-Net LP v. Flagstar Bancorp., 653 F.3d 1314, 1321-23 (Fed. Cir. 2011).
VirnetX attempts to rebut this suggestion by
pointing to a single place in the specification where a
“secure communication path” is referred to as providing only security, without anonymity. See ’504 patent
col. 39 ll. 24-35. But that disclosure relates to the
“conventional architecture” of the prior art that suffers precisely because it “hamper[s] anonymous communications on the Internet.” Id. at col. 39 ll. 24, 3233. And indeed, the specification goes on to explain
how the invention solves that very problem by setting
up a VPN, which requires anonymity. Id. at col. 39 ll.
46-62.
VirnetX also argues that the specification teaches
that different users have “different needs” such that
some users need data security while, in other cases,
“it may be desired” to also have anonymity. Appellee’s
Br. 48 (citing ’504 patent col. 1 ll. 33-52). Thus, VirnetX insists, the TARP protocol (with its requirement
of anonymity) is but one type of “secure communication link,” and does not limit the construction of that
term. To be sure, the specification mechanically prefaces most passages with the phrase “according to one
aspect of the present invention.” See, e.g., ’504 patent
col. 6 l. 36. But the Background and Summary of the
Invention clearly identify the TARP protocol as a key
part of the novel solution to the specific problem identified in the prior art. Unsurprisingly, therefore, VirnetX has not identified even a single embodiment that
provides data security but not anonymity.

91a
Moreover, in several instances the specification
appears to use the terms “secure communication link”
and “VPN” interchangeably, suggesting that the inventors intended the disputed term to encompass the
anonymity provided by a VPN. See Nystrom v. Trex
Co., 424 F.3d 1136, 1143 (Fed. Cir. 2005) (“Different
terms or phrases in separate claims may be construed
to cover the same subject matter where the written
description and prosecution history indicate that such
a reading of the terms or phrases is proper.”). For example, it states that “[w]hen software module 3309 is
being installed or when the user is off-line, the user
can optionally specify that all communication links
established over computer network 3302 are secure
communication links. Thus, anytime that a communication link is established, the link is a VPN link.” ’504
patent col. 52 ll. 15-19 (emphases added). Similarly,
in the very next paragraph the specification states
that “a user at computer 3301 can optionally select a
secure communication link through proxy computer
3315. Accordingly, computer 3301 can establish a
VPN communication link 3323 with secure server
computer 3320 through proxy computer 3315.” Id. at
col. 52 ll. 25-29 (emphases added). In both of these instances, the specification equates the term “secure
communication link” with a “VPN.” The only counterexample VirnetX can point to is an instance where the
specification states, in relation to one aspect of the invention, that “[t]he secure communication link is a
virtual private network communication link over the
computer network.” Id. at col. 6 ll. 61-63. But equating the two terms with respect to one aspect of the
present invention is a far cry from expressly divorcing

92a
those terms elsewhere, particularly in the absence of
any embodiment or disclosure that does so.
Thus, we reverse the district court’s claim construction and conclude that the term “secure communication link” as used in the ’504 and ’211 patents requires anonymity. Accordingly, the term should be
construed as “a direct communication link that provides data security and anonymity.”
II. Infringement
We review the denial of a motion for JMOL or a
new trial under the law of the regional circuit. Verizon
Servs. Corp. v. Cox Fibernet Va., Inc., 602 F.3d 1325,
1331 (Fed. Cir. 2010). The Fifth Circuit requires that
a jury’s determination must be upheld if it is supported by substantial evidence. ClearValue, Inc. v.
Pearl River Polymers, Inc., 668 F.3d 1340, 1343 (Fed.
Cir. 2012) (citing Med. Care Am., Inc. v. Nat’l Union
Fire Ins. Co., 341 F.3d 415, 420 (5th Cir. 2003)).
A. ’504 and ’211 Patents
Apple argues that there was not substantial evidence to support the jury’s verdict that its FaceTime
servers infringe the asserted claims of the ’504 and
’211 patents. Apple insists that FaceTime does not infringe the “secure communication link” claim term for
two reasons: first, because when properly construed it
requires anonymity, which the FaceTime servers do
not provide, and second, because they do not provide
“direct” communication, as required by the district
court’s claim construction.

93a
With respect to the first argument, we have now
construed the disputed claim term so as to require anonymity. See supra at 13. However, the jury was not
presented with the question of whether FaceTime infringes the asserted claims under a construction requiring anonymity. Thus, we remand for further proceedings to determine whether Apple’s FaceTime
servers provide anonymity.
With respect to the second argument, Apple argues that FaceTime servers do not provide “direct”
communication because the communications are addressed to a NAT, rather than to the receiving device.
Appellant’s Br. 43. The district court concluded that
there was substantial evidence to support the jury’s
finding that the NAT routers used by FaceTime do not
impede direct communication, VirnetX, 925 F. Supp.
2d at 831, and we agree. As the district court noted,
VirnetX’s expert testified that the NAT routers still
allow for “end-to-end communication between the two
devices,” J.A. 1565, because they merely translate addresses from the public address space to the private
address space, but do not terminate the connection.
J.A. 1465, 1536-37. Even Apple’s expert admitted that
the connection does not stop at the NAT routers. J.A.
1984.
Apple argues that this testimony cannot support
a finding of infringement because it is inconsistent
with the court’s claim construction that required “direct addressability.” Appellant’s Br. 43-45. But the
district court considered this argument and disagreed, noting that its claim construction expressly
provided that “routers, firewalls, and similar

94a
servers … do not impede ‘direct’ communication,” and
VirnetX presented evidence that NATs operate like
routers or firewalls. VirnetX, 925 F. Supp. 2d at 831.
Thus, we do not think the district court erred in
finding that there was substantial evidence on which
the jury could have relied to reach its finding of infringement on this element.
B. ’135 and ’151 Patents
Apple also argues that there was not substantial
evidence to support the jury’s verdict that its VPN On
Demand product infringed the asserted claims of the
’135 and ’151 patents for several reasons, discussed in
turn below.
1. “Determining Whether”
Apple argues that its VPN On Demand feature
does not infringe the asserted claims of the ’135 and
’151 patents because it does not “determine whether”
a requested domain name is a secure website or
server. Instead, Apple insists that it merely determines whether the requested website is listed in the
user-created “configuration file” and initiates a VPN
connection for any domain name on that list, regardless of whether or not it is secure. In response, VirnetX argues that there was substantial evidence
demonstrating that the VPN On Demand system is
designed and intended to be used only for accessing
secure private networks. We agree with VirnetX.
Here, the evidence presented at trial supports the
conclusion that Apple’s VPN On Demand product

95a
infringes the asserted claim limitation in its normal
configuration. In particular, VirnetX’s expert testified
that Apple’s technical design documents and internal
technical presentations relating to the VPN On Demand system (many of which are confidential and
cannot be quoted here) make clear that a VPN connection should only be established for private web addresses. Thus, regardless of whether a user could misconfigure the list by entering public domain names,
Apple’s planning documents, internal emails, and
presentations all explained that VPN On Demand’s
primary use is to connect users to secure sites using a
VPN. That is all that is required. See Hilgraeve Corp.
v. Symantec Corp., 265 F.3d 1336, 1343 (Fed. Cir.
2001).
Moreover, this description of the VPN On Demand feature is consistent with how the claimed functionality is described in the specification. For example, in one embodiment, the DNS proxy determines
whether a request is for a secure site by checking the
domain name against a table or list of domain names.
’135 patent col. 38 ll. 23-30. In other words, the proxy
identifies a request for “access to a secure site … by
reference to an internal table of such sites.” Id. That
is precisely how the VPN On Demand feature operates.
We therefore conclude that the jury’s finding that
the VPN On Demand product infringes the “determining whether” limitation was supported by substantial
evidence.

96a
2. “Between”
a. Literal Infringement of Claim 1 of the ’135 Patent
and Claim 13 of the ’151 Patent
Claim 1 of the ’135 patent requires creating a
“VPN” “between” the client and a target computer.
’135 patent col. 47 ll. 20-22. Similarly, claim 13 of the
’151 patent requires creating a “secure channel” “between” the client and the secure server. ’151 patent
col. 48 ll. 28-29. For both claims, the district court construed “between” to mean “extending from” the client
to the target computer. Claim Construction Order at
26.
Apple argues that its VPN On Demand product
fails to meet this limitation because it only secures
communications between the iPhone and the VPN
server, but not between the VPN server and the target
computer. VirnetX responds that Apple’s product is
intended to be used with private networks, which are
generally configured to be both secure and anonymous. In other words, VirnetX argues that the secure
channel between the VPN server and the target computer is provided by the target computer itself. After
considering the record as a whole, we conclude that
there was substantial evidence to support the jury’s
verdict of infringement on this limitation.
At trial, VirnetX presented evidence and testimony to the jury that “the virtual private network extend[s] from the client computer to the target computer because it’s encrypted on the insecure paths,
and it’s secure within the corporate network.” J.A.
1400-01. VirnetX’s expert testified that one of

97a
ordinary skill would understand that the path extending from the VPN server to the target computer, i.e.,
within the private network, would be secure and
anonymous owing to protection provided by the private network. J.A. 1080 (“That network is secure, because it’s been physically secured; and it also has
what’s called a firewall between its network and the
public network. So it keeps the bad guys out.”); J.A.
1379 (“If that’s a private network of the company that
they’ve set up behind a VPN server, the company
would have configured that to be secure.”); J.A. 1396
(“[T]hese are … private networks that are not to be
accessed by others. They require authorization for access.”). The jury also heard testimony that while in
some situations traffic could be unsecured behind the
VPN server, J.A. 1997-98, this scenario would be
“atypical.” J.A. 1992-93. For example, VirnetX presented evidence to the jury that Apple itself advertised that VPN On Demand is designed to connect
with “private corporate networks” and “works with a
variety of authentication methods.” J.A. 20001. And,
more to the point, the jury heard that the “private corporate networks” to which VPN On Demand is intended to connect employ security measures including
VPN servers, VPN authentication servers, proxy servers, and firewalls which regulate access to private resources and prevent unauthorized users from breaching. J.A. 1080, 1379, 1401.
Apple argues that this finding of infringement
necessarily rests on a series of “assumptions” about
how all private networks operate in order to conclude
that VPN On Demand is “typically” configured to operate in the manner accused of infringement.

98a
Appellant’s Br. 30-31. However, VirnetX’s expert relied on Apple’s own internal technical documentation,
product specifications, and marketing presentations,
several of which describe specific security measures
used by the private networks to which VPN On Demand is intended to connect. This evidence demonstrates not only that VPN On Demand may be configured to interact with private networks, but that this
was apparently Apple’s primary objective. Apple
would have VirnetX prove that VPN On Demand has
no non-infringing modes of operation. But, as noted
above, VirnetX bears no such burden. See supra at 1516; see also z4 Techs., Inc. v. Microsoft Corp., 507 F.3d
1340, 1350 (Fed. Cir. 2007) (“[I]nfringement is not
avoided merely because a non-infringing mode of operation is possible.”). We cannot agree that the jury’s
finding lacks substantial evidence because VirnetX
did not specifically disprove that VPN On Demand
can, in atypical situations, establish a VPN with insecure networks.
Apple also responds that this evidence is insufficient because VirnetX’s expert testified that VPN On
Demand only encrypts communications between the
iPhone and the VPN server—by implication leaving
the path from the VPN server to the target unencrypted. Appellant’s Br. 29 (quoting J.A. 1392). However, the district court’s construction of “VPN” does
not require that traffic on a secure path be encrypted.
Rather, the construction only requires encryption of
traffic “on insecure paths.” Claim Construction Order
at 8. Moreover, as indicated by the ’135 patent, encryption is just one possible way to address data security. ’135 patent col. 1 ll. 38-39 (“Data security is

99a
usually tackled using some form of data encryption.”
(emphasis added)). And VirnetX provided substantial
evidence for the jury to conclude that paths beyond
the VPN server may be rendered secure and anonymous by means of “physical security” present in the
private corporate networks connected to by VPN On
Demand. See, e.g., J.A. 1401.
Accordingly, we conclude that the jury’s finding
that the VPN On Demand feature creates a “VPN” or
a “secure channel” that extends from the client to the
target computer was supported by substantial evidence. We therefore affirm the district court’s denial
of JMOL as to claim 1 of the ’135 patent and claim 13
of the ’151 patent.
b. Infringement of Claim 1 of the ’151 Patent Under
the Doctrine of Equivalents
Claim 1 of the ’151 patent is similar to claim 13
except that it requires initiating an “encrypted channel”—rather than a “secure channel”—“between” the
client and the secure server. ’151 patent col. 46 ll. 6667. With respect to infringement, VirnetX conceded
that VPN On Demand does not literally practice this
limitation because the private network between the
VPN server and the target is “not necessarily encrypted” from end to end. J.A. 1420-21. Rather, VirnetX asserted that VPN On Demand infringes under
the doctrine of equivalents because the difference between secure communication via encryption and secure communication in general is insubstantial. J.A.
1421-24. Apple argues that VirnetX’s theory of equivalents is legally insufficient because it vitiates the
“encrypted channel” element. Appellant’s Br. 32-33.

100a
To find infringement under the doctrine of equivalents, any differences between the claimed invention
and the accused product must be insubstantial. See
Graver Tank & Mfg. Co. v. Linde Air Prods. Co., 339
U.S. 605, 608 (1950). Insubstantiality may be determined by whether the accused device performs substantially the same function in substantially the same
way to obtain substantially the same result as the
claim limitation. Crown Packaging Tech., Inc. v.
Rexam Beverage Can Co., 559 F.3d 1308, 1312 (Fed.
Cir. 2009). This is a question of fact. Anchor Wall Sys.,
Inc. v. Rockwood Retaining Walls, Inc., 340 F.3d 1298,
1313 (Fed. Cir. 2003). Vitiation is not an exception to
the doctrine of equivalents. Deere & Co. v. Bush Hog,
LLC, 703 F.3d 1349, 1356 (Fed. Cir. 2012). Rather, it
is a legal determination that “the evidence is such
that no reasonable jury could determine two elements
to be equivalent.” Id. (citation omitted).
After considering the record as a whole, we conclude that the evidence presented at trial does not
support the jury’s finding of infringement under the
doctrine of equivalents. VirnetX’s expert testified that
VPN On Demand (a) performs substantially the same
function because it secures the communication between the client and the secure server, (b) does so in
substantially the same way by protecting data
through encryption on insecure paths that are vulnerable to eavesdroppers, and (c) achieves substantially
the same result of successfully protecting the entire
communication path from potential eavesdroppers.
See J.A. 1424.

101a
Notably, in explaining the “way” that VPN On Demand secures communications, the expert did not testify that VPN On Demand provides encryption on the
allegedly secure pathway between the VPN server
and the private network, but only on the insecure portion of the pathway. Thus, his testimony effectively
equates the “security” of the private network with the
“encryption” provided by the VPN server. But the patent consistently differentiates between “security”
and “encryption.” Both the claims and the specification of the ’151 patent make clear that encryption is a
narrower, more specific requirement than security.
For example, the specification states that encryption
is just one possible way to address data security.
’151 patent col. 1 ll. 49-50 (“Data security is usually
tackled using some form of data encryption.” (emphasis added)). Additionally, one of the primary differences between the steps performed in claim 1 of the
’151 patent and the steps performed in claim 13 is
that claim 13 requires creating a “secure” channel,
while claim 1 specifically requires that the channel be
“encrypted.”
In light of these distinctions in the patent itself,
the jury’s implicit finding that VPN On Demand
achieves the result of protecting communications
from eavesdropping in “substantially the same way”
as contemplated by the “encrypted channel” claim
limitation was not supported by VirnetX’s expert’s
testimony. See Crown Packaging, 559 F.3d at 1312.
No reasonable jury could have determined that the security provided by the VPN On Demand system—
which includes encryption on the insecure paths but
otherwise relies on the security provided by private

102a
networks—is equivalent to the “encrypted channel”
required by claim 1 of the ’151 patent. The district
court’s denial of JMOL as to that claim must therefore
be reversed.
III. Invalidity
A party challenging the validity of a patent must
establish invalidity by clear and convincing evidence.
See Microsoft Corp. v. i4i Ltd. P’ship, 131 S. Ct. 2238,
2242 (2011). Anticipation is a factual question that we
review for substantial evidence. SynQor, Inc. v. Artesyn Techs., Inc., 709 F.3d 1365, 1373 (Fed. Cir.
2013). A claim is anticipated only if each and every
element is found within a single prior art reference,
arranged as claimed. See NetMoneyIN, Inc. v. VeriSign, Inc., 545 F.3d 1359, 1369 (Fed. Cir. 2008).
Apple argues that the asserted claims are anticipated by the Kiuchi reference. However, we conclude
that the jury heard substantial evidence that at least
one element of each asserted claim was missing from
that reference. With respect to the ’135, ’504, and ’211
patents, the jury heard evidence that Kiuchi’s proxy
servers at least do not teach “direct communication”
between a client and target computer, which is sufficient to defeat a claim of anticipation. J.A. 2343-44.
Specifically, the jury heard expert testimony that
Kiuchi’s client-side and server-side proxies terminate
the connection, process information, and create a new
connection—actions that are not “direct” within the
meaning of the asserted claims. J.A. 2334-35. VirnetX
distinguished such proxy activities from the operation
of NAT routers which—unlike proxy servers in the
prior art—do not terminate the connection.

103a
Additionally, with respect to the ’151 patent,
there was substantial evidence to support VirnetX’s
argument that Kiuchi fails to disclose the requirement that the DNS request be “sent by a client.” ’151
patent col. 46 l. 57. Apple argued that the “client-side
proxy” of Kiuchi meets the “client” limitation, but
there was evidence that the “client” of Kiuchi is actually a web browser, a component that is distinguishable from the client-side proxy. See J.A. 2341. Thus, the
district court did not err in denying Apple’s JMOL motion with respect to invalidity.
IV. Exclusion of Evidence
At trial, to prove induced infringement, VirnetX
attempted to show that Apple knew or was willfully
blind to the fact that its customers’ use of its products
would infringe valid patent claims. In defense, Apple
sought to inform the jury that, after learning of VirnetX’s allegations, Apple initiated reexaminations
against the asserted patents. Apple’s requests for
reexamination resulted in initial rejections of the asserted claims at the United States Patent and Trademark Office (“PTO”). Apple offered these rejections as
evidence of Apple’s reasonably-held belief that the patents were invalid. The district court, however, excluded this proffer, concluding that such non-final actions in pending reexaminations would be “highly
prejudicial evidence that risks misleading the jury.”
VirnetX, 925 F. Supp. at 842.
We apply regional circuit law to evidentiary issues. The Fifth Circuit reviews a district court’s exclusion of evidence under Federal Rule of Evidence
403 for “clear abuse of discretion” resulting in

104a
substantial prejudice. Wellogix, Inc. v. Accenture,
L.L.P., 716 F.3d 867, 882 (5th Cir. 2013). In this case,
we cannot say that the district court abused its discretion in excluding this evidence.
Apple asserts that the rejections are relevant because they establish its good faith belief that the asserted claims are invalid, thereby negating the requisite intent for inducement. Appellant’s Br. 50 (citing
Commil USA, LLC v. Cisco Sys., Inc., 720 F.3d 1361,
1368-69 (Fed. Cir. 2013)). As an initial matter, we
note that this court’s precedent has often warned of
the limited value of actions by the PTO when used for
such purposes. See, e.g., Hoechst Celanese Corp. v. BP
Chems. Ltd., 78 F.3d 1575, 1584 (Fed. Cir. 1996)
(“[G]rant by the examiner of a request for reexamination is not probative of unpatentability.”); Acoustical
Design, Inc. v. Control Elecs. Co., 932 F.2d 939, 942
(Fed. Cir. 1991) (“[I]nitial rejection by the [PTO] …
hardly justifies a good faith belief in the invalidity of
the claims.”). However, in this case we need not decide
whether our opinion in Commil justifies reliance on
reexamination evidence to establish a good faith belief of invalidity. Instead, we conclude that, regardless
of the evidence’s relevance to a fact at issue at trial,
the district court would still not have abused its discretion in finding that the probative value was substantially outweighed by the risk of unfair prejudice
to the patentee, confusion with invalidity (on the merits), or misleading the jury, thereby justifying exclusion under Federal Rule of Evidence 403. See, e.g.,
SynQor, 709 F.3d at 1380 (finding no abuse of discretion for excluding non-final reexamination evidence
as being “confusing and more prejudicial than

105a
probative”); Callaway Golf Co. v. Acushnet Co., 576
F.3d 1331, 1342- 43 (Fed. Cir. 2009) (finding the probative value of a copending reexamination marginal
and the effect likely to be highly prejudicial). Thus, we
affirm the district court’s exclusion of this evidence.
V. Damages
At trial, VirnetX’s damages expert, Mr. Roy Weinstein, provided three reasonable royalty theories,
which the district court admitted over Apple’s challenges under Daubert v. Merrell Dow Pharmaceuticals, Inc., 509 U.S. 579 (1993).
Weinstein’s first approach began with the lowest
sale price of each model of the accused iOS devices
containing the accused features. J.A. 1616-23. Weinstein then applied a 1% royalty rate to the base, derived from a VirnetX policy of seeking to license its
patents for at least 1-2% of the entire value of products sold and several allegedly comparable licenses.
J.A. 1595, 1613-14. This theory yielded a $708 million
demand, consisting of $566 million for products including both FaceTime and VPN On Demand, and
$142 million for those including only VPN On Demand. J.A. 1622-24, 1644.
Weinstein also offered a second damages theory,
regarding FaceTime alone, relying on a mathematical
theorem proved by John Nash, a mathematician who
proved a number of results in game theory that have
become important in economics and other fields. J.A.
1628-29. Nash was a co-winner of the 1994 Nobel
Prize in Economics for some of this work, though not
the theorem at issue here—published as “The

106a
Bargaining Problem” in 18 Econometrica 155-62 (Apr.
1950). Like other mathematical theorems, this theorem states a number of premises and establishes a
conclusion that follows from those premises. In particular, under the conditions stated in the premises,
where two persons bargain over a matter, there is a
“solution” to the negotiation problem satisfying stated
conditions on a desirable result (bargain). That solution—in which “each bargainer get[s] the same money
profit,” id. at 162—has come to be called the Nash
Bargaining Solution.
Weinstein, invoking the Nash Bargaining Solution, testified that “the parties [would have] split between themselves the incremental or additional profits that are associated with the use of the patented
technology.” J.A. 1630. Weinstein derived the profits
associated with FaceTime from the revenue generated by the addition of a “front-facing” camera on Apple’s mobile devices. Without examining the applicability to this case of all the preconditions for the Nash
Bargaining Solution, he invoked the Solution as suggesting a 50/50 split of those profits, and then modified that result by 10%, explaining that VirnetX
would have received only 45% of the profit because of
its weaker bargaining position, leaving 55% for Apple.
J.A. 1633, 1709. This calculation amounted to $588
million in damages for infringement by FaceTime.
J.A. 1633-38.
Finally, Weinstein offered yet another theory for
FaceTime, again relying on the Nash Bargaining Solution. This time, he claimed that FaceTime “drove
sales” for Apple iOS products. J.A. 1639. Weinstein

107a
extrapolated from a customer survey to assert that
18% of all iOS device sales would not have occurred
without the addition of FaceTime. J.A. 1641. From
that figure, he determined the amount of Apple’s profits that he believed were attributable to the FaceTime
feature, and apportioned 45% of the profits to VirnetX, consistent with his previous application of the
Nash theory. Using this approach, Weinstein arrived
at damages of $5.13 per unit, totaling $606 million in
damages for FaceTime. J.A. 1643.
Ultimately, the jury awarded VirnetX $368 million in damages. Apple now challenges each of Weinstein’s damages theories, as well as the district court’s
jury instruction on damages. For the reasons stated
below, we vacate the jury’s damages award and remand for further proceedings consistent with this
opinion.
A. Jury Instruction
Upon a finding of infringement, “the court shall
award the claimant damages adequate to compensate
for the infringement, but in no event less than a reasonable royalty for the use made of the invention by
the infringer.” 35 U.S.C. § 284. The most common
method for determining a reasonable royalty is the
hypothetical negotiation approach, which “attempts
to ascertain the royalty upon which the parties would
have agreed had they successfully negotiated an
agreement just before infringement began.” Lucent
Techs., Inc. v. Gateway, Inc., 580 F.3d 1301, 1324
(Fed. Cir. 2009). A reasonable royalty may be a lumpsum payment not calculated on a per-unit basis, but
it may also be, and often is, a running payment that

108a
varies with the number of infringing units. In that
event, it generally has two prongs: a royalty base and
a royalty rate.
No matter what the form of the royalty, a patentee must take care to seek only those damages attributable to the infringing features. Indeed, the Supreme Court long ago observed that a patentee
must in every case give evidence tending to
separate or apportion the defendant’s profits
and the patentee’s damages between the patented feature and the unpatented features,
and such evidence must be reliable and tangible, and not conjectural or speculative; or he
must show, by equally reliable and satisfactory evidence, that the profits and damages
are to be calculated on the whole machine, for
the reason that the entire value of the whole
machine, as a marketable article, is properly
and legally attributable to the patented feature.
Garretson v. Clark, 111 U.S. 120, 121 (1884).
Thus, when claims are drawn to an individual
component of a multi-component product, it is the exception, not the rule, that damages may be based
upon the value of the multi-component product.
LaserDynamics, Inc. v. Quanta Computer, Inc.,
694 F.3d 51, 67-68 (Fed. Cir. 2012). Indeed, we recently reaffirmed that “[a] patentee may assess damages based on the entire market value of the accused
product only where the patented feature creates the
basis for customer demand or substantially creates

109a
the value of the component parts.” Versata Software,
Inc. v. SAP Am., Inc., 717 F.3d 1255, 1268 (Fed. Cir.
2013) (emphasis added) (quoting SynQor, 709 F.3d at
1383). In the absence of such a showing, principles of
apportionment apply.
These strict requirements limiting the entire
market value exception ensure that a reasonable royalty “does not overreach and encompass components
not covered by the patent.” LaserDynamics, 694 F.3d
at 70; see also Garretson, 111 U.S. at 121 (“[T]he patentee must show in what particulars his improvement has added to the usefulness of the machine or
contrivance.”). Thus, “[i]t is not enough to merely
show that the [patented feature] is viewed as valuable, important, or even essential to the use of the
[overall product].” LaserDynamics, 694 F.3d at 68. Instead, this court has consistently held that “a reasonable royalty analysis requires a court to … carefully
tie proof of damages to the claimed invention’s footprint in the market place.” ResQNet.com, Inc. v.
Lansa, Inc., 594 F.3d 860, 869 (Fed. Cir. 2010); see
also Cornell Univ. v. Hewlett-Packard Co., 609 F.
Supp. 2d 279, 285 (N.D.N.Y. 2009) (“The entire market value rule indeed permits damages on technology
beyond the scope of the claimed invention, but only
upon proof that damages on the un-patented components or technology is necessary to fully compensate
for infringement of the patented invention.”). Additionally, we have also cautioned against reliance on
the entire market value of the accused products because it “cannot help but skew the damages horizon
for the jury, regardless of the contribution of the patented component to this revenue.” Uniloc USA, Inc.

110a
v. Microsoft Corp., 632 F.3d 1292, 1320 (Fed. Cir.
2011).
Apple argues that the district court misstated this
law on the entire market value rule in its jury instruction. The district court instructed the jury as follows:
In determining a royalty base, you should not
use the value of the entire apparatus or product unless either: (1) the patented feature creates the basis for the customers’ demand for
the product, or the patented feature substantially creates the value of the other component
parts of the product; or (2) the product in
question constitutes the smallest saleable
unit containing the patented feature.
J.A. 2515-16. Apple argues that this instruction inappropriately created a second exception that would allow a patentee to rely on the entire market value of a
multi-component product so long as that product is
the smallest salable unit containing the patented feature.
We agree with Apple that the district court’s instruction misstates our law. To be sure, we have previously permitted patentees to base royalties on the
“smallest salable patent-practicing unit.” LaserDynamics, 694 F.3d at 67. However, the instruction mistakenly suggests that when the smallest salable unit is used as the royalty base, there is necessarily no further constraint on the selection of the
base. That is wrong. For one thing, the fundamental
concern about skewing the damages horizon—of using a base that misleadingly suggests an

111a
inappropriate range—does not disappear simply because the smallest salable unit is used.
Moreover, the smallest salable unit approach was
intended to produce a royalty base much more closely
tied to the claimed invention than the entire market
value of the accused products. Indeed, that language
first arose in the Cornell case, where the district court
noted that, rather than pursuing a “royalty base claim
encompassing a product with significant non-infringing components,” the patentee should have based its
damages on “the smallest salable infringing unit with
close relation to the claimed invention.” 609 F. Supp.
2d at 287-88 (emphasis added). In other words, the
requirement that a patentee identify damages associated with the smallest salable patent-practicing unit
is simply a step toward meeting the requirement of
apportionment. Where the smallest salable unit is, in
fact, a multi-component product containing several
non-infringing features with no relation to the patented feature (as VirnetX claims it was here), the patentee must do more to estimate what portion of the
value of that product is attributable to the patented
technology. To hold otherwise would permit the entire
market value exception to swallow the rule of apportionment.4
In reaching this conclusion, we are cognizant of
the difficulty that patentees may face in assigning
value to a feature that may not have ever been
As, indeed, it did in this case, where VirnetX effectively relied
on the entire market value of the iOS devices without showing
that the patented features drove demand for those devices,
simply by asserting that they were the smallest salable units.

4

112a
individually sold. However, we note that we have
never required absolute precision in this task; on the
contrary, it is well-understood that this process may
involve some degree of approximation and uncertainty. See generally Unisplay, S.A. v. Am. Elec. Sign
Co., 69 F.3d 512, 517 (Fed. Cir. 1995).
We conclude that the district court’s jury instruction regarding the entire market value rule was legally erroneous. Moreover, that error cannot be considered harmless, as VirnetX’s expert relied on the entire value of the iOS devices as the “smallest salable
units,” without attempting to apportion the value attributable to the VPN On Demand and FaceTime features. Thus, it is clear that the jury’s verdict was
tainted by the erroneous jury instruction.
B. Weinstein’s First Approach: Royalty Base
In addition to the erroneous jury instruction, Apple argues that the testimony of VirnetX’s expert on
the proper royalty base should have been excluded because it relied on the entire market value of Apple’s
products without demonstrating that the patented
features drove the demand for those products. For
similar reasons to those stated above, we agree.
The admissibility of expert testimony is governed
by the Federal Rules of Evidence and the principles
laid out in Daubert v. Merrell Dow Pharmaceuticals,
Inc., 509 U.S. 579 (1993). The district court’s “gatekeeping obligation” applies to all types of expert testimony. Kumho Tire Co. v. Carmichael, 526 U.S. 137,
147 (1999). While questions regarding which facts are
most relevant for calculating a reasonable royalty are

113a
properly left to the jury, a critical prerequisite is that
the underlying methodology be sound. Here, it was
not, and the district court should have exercised its
gatekeeping authority to ensure that only theories
comporting with settled principles of apportionment
were allowed to reach the jury.
Under Weinstein’s first damages theory, he undisputedly based his calculations on the entire cost of
the iOS devices, ranging in value from $199 for the
iPod Touch to $649 for the iPhone 4S. Weinstein used
the base price at which each product was sold, excluding only charges for additional memory sold separately. He called this the smallest salable unit. However, when asked whether this “remove[d] features
that aren’t accused in this case,” Weinstein answered
as follows:
To the extent that the products that we’re
talking about here contain additional features, like additional memory, for instance,
that Apple was charging for, by using the lowest saleable unit, I’m doing as much as I can
to remove payments for those features ….
J.A. 1620 (emphasis added). This testimony confirms
that Weinstein did not even attempt to subtract any
other unpatented elements from the base, which
therefore included various features indisputably not
claimed by VirnetX, e.g., touchscreen, camera, processor, speaker, and microphone, to name but a few. J.A.
1143-44.
VirnetX defends Weinstein’s approach by insisting that “software creates the largest share of the

114a
product’s value” for these popular iOS products. Appellee’s Br. 60. But this misses the point. Whether
“viewed as valuable, important, or even essential,”
the patented feature must be separated. LaserDynamics, 694 F.3d at 68. Weinstein made no attempt to separate software from hardware, much less
to separate the FaceTime software from other valuable software components.
Indeed, the record supports Apple’s contention
that Weinstein could have apportioned a smaller per
unit figure for FaceTime; namely, for the use of
FaceTime on Mac computers he used a royalty base of
$29—the cost of the software upgrade. J.A. 1619. And
he used an even lower estimate to represent the patentable contributions to iOS devices in his application of the Nash Bargaining Solution, calculating incremental revenues due to FaceTime at $15 per iOS
device. J.A. 1634-36. The only reason Weinstein gave
for not using the $29 as the base for other iOS products was that Apple does not actually charge separately for FaceTime on those devices. J.A. 1673-74.
But, as explained above, a patentee’s obligation to apportion damages only to the patented features does
not end with the identification of the smallest salable
unit if that unit still contains significant unpatented
features.5

Because Apple has not challenged it, we offer no opinion on
whether the $29 software upgrade is itself so closely related to
the patented feature that VirnetX may rely on its entire value in
determining the proper royalty base for the FaceTime feature.

5

115a
Thus, VirnetX cannot simply hide behind Apple’s
sales model to avoid the task of apportionment. This
court rejects the excuse that “practical and economic
necessity compelled [the patentee] to base its royalty
on the price of an entire [device].” LaserDynamics,
694 F.3d at 69. There is no “necessity-based exception
to the entire market value rule.” Id. at 70. On the contrary, a patentee must be reasonable (though may be
approximate) when seeking to identify a patent-practicing unit, tangible or intangible, with a close relation to the patented feature.
In the end, VirnetX should have identified a patent-practicing feature with a sufficiently close relation to the claimed functionality. The law requires patentees to apportion the royalty down to a reasonable
estimate of the value of its claimed technology, or else
establish that its patented technology drove demand
for the entire product. VirnetX did neither. As we
noted in LaserDynamics:
Whether called “product value apportionment” or anything else, the fact remains that
the royalty was expressly calculated as a percentage of the entire market value of a [multicomponent product] rather than a patentpracticing [component] alone. This, by definition, is an application of the entire market
value rule.
Id. at 68. In calculating the royalty base, Weinstein did not even try to link demand for the accused
device to the patented feature, and failed to apportion
value between the patented features and the vast
number of non-patented features contained in the

116a
accused products. Because Weinstein did not “carefully tie proof of damages to the claimed invention’s
footprint in the market place,” Uniloc, 632 F.3d at
1317 (quoting ResQNet, 594 F.3d at 869), his testimony on the royalty base under this approach was inadmissible and should have been excluded.
C. Weinstein’s First Approach: Royalty Rate
In addition to challenging Weinstein’s testimony
with respect to the royalty base, Apple argues that his
testimony with respect to the royalty rate should also
have been excluded.
After determining the royalty base, Weinstein applied a 1% royalty rate, based on six allegedly comparable licenses, as well as his understanding that VirnetX had a “policy” of licensing its patents for 1-2%.
Apple argues that the licenses on which Weinstein relied were not sufficiently comparable to the license
that would have resulted from the hypothetical negotiation. In particular, Apple points out that two of the
licenses predated the patents-in-suit. Both of those
agreements related to technology leading to the
claimed invention, and one contained a software license in addition to a license for various patent applications. Apple further complains that three of the
other licenses were entered into in 2012, a full three
years after the date of the “hypothetical negotiation,”
set in June 2009. Apple argues that at the time those
licenses were entered into, VirnetX was in a much
better financial position (and therefore a better bargaining position) than it was in 2009. Finally, Apple
notes that the sixth license covered sixty-eight VirnetX patents, and was therefore much broader than

117a
the license to four patents Apple would be seeking in
the hypothetical negotiation. It also equated to a
0.24% royalty rate, which is significantly lower than
the 1-2% rate Weinstein testified VirnetX would accept.
We have held that in attempting to establish a
reasonable royalty, the “licenses relied on by the patentee in proving damages [must be] sufficiently comparable to the hypothetical license at issue in suit.”
Lucent, 580 F.3d at 1325. “When relying on licenses
to prove a reasonable royalty, alleging a loose or
vague comparability between different technologies
or licenses does not suffice.” LaserDynamics, 694 F.3d
at 79. However, we have never required identity of
circumstances; on the contrary, we have long
acknowledged that “any reasonable royalty analysis
‘necessarily involves an element of approximation and
uncertainty.’” Lucent, 580 F.3d at 1325 (quoting
Unisplay, 69 F.3d at 517). Thus, we have cautioned
that “district courts performing reasonable royalty
calculations [must] exercise vigilance when considering past licenses to technologies other than the patent
in suit,” ResQNet, 594 F.3d at 869, and “must account
for differences in the technologies and economic circumstances of the contracting parties,” Finjan, Inc. v.
Secure Computing Corp., 626 F.3d 1197, 1211 (Fed.
Cir. 2010).
With those principles in mind, we conclude that
the district court here did not abuse its discretion in
permitting Weinstein to rely on the six challenged licenses. To begin with, four of those licenses did indeed
relate to the actual patents-in-suit, while the others

118a
were drawn to related technology. Moreover, all of the
other differences that Apple complains of were presented to the jury, allowing the jury to fully evaluate
the relevance of the licenses. See J.A. 1600, 1650,
1678-82. No more is required in these circumstances.
Our case law does not compel a contrary result. In
ResQNet, we faulted the district court for relying on
licenses with “no relationship to the claimed invention,” nor even a “discernible link to the claimed technology.” 594 F.3d at 870. And in Lucent, we rejected
reliance on licenses from “vastly different situation[s]” or where the subject matter of certain agreements was not even ascertainable from the evidence
presented at trial. 580 F.3d at 1327-28. The licenses
in this case—though not immune from challenge—
bear a closer relationship to the hypothetical negotiation that would have occurred.
This case is therefore much more akin to the circumstances in Finjan and ActiveVideo Networks, Inc.
v. Verizon Communications, Inc., 694 F.3d 1312 (Fed.
Cir. 2012). In Finjan, there were several differences
between the single license relied upon and the hypothetical negotiation, most notably that Finjan did not
compete with the licensee as it did with the defendant
in the case, and that the license involved a lump sum
rather than a running royalty. 626 F.3d at 1212. Nevertheless, we affirmed the damages award based on
that license because “[those] differences permitted the
jury to properly discount the … license.” Id. And in
ActiveVideo, the damages expert relied on two agreements, one of which post-dated the hypothetical negotiations by two years, did not involve the patents-in-

119a
suit, and did not cover the technologies in the case,
while the other agreement covered both patents and
software services. 694 F.3d at 1333. Nevertheless, we
concluded that the “degree of comparability” of the license agreements was “[a] factual issue[] best addressed by cross examination and not by exclusion.”
Id. Similarly, here, though there were undoubtedly
differences between the licenses at issue and the circumstances of the hypothetical negotiation, “[t]he
jury was entitled to hear the expert testimony and decide for itself what to accept or reject.” i4i Ltd. P’ship
v. Microsoft Corp., 598 F.3d 831, 856 (Fed. Cir. 2010),
aff’d 131 S. Ct. 2238 (2011).
Thus, we do not believe the district court abused
its discretion by permitting Weinstein’s testimony regarding the proper royalty rate based on these allegedly comparable licenses.
D. Weinstein’s Second and Third Approaches: Nash
Bargaining Solution
Weinstein also offered two other estimates of the
damages attributable to the FaceTime feature. Both
of these estimates relied on the Nash Bargaining Solution. Weinstein began by determining “incremental
or additional profits that are associated with the use
of the patented technology.” J.A. 1630. Weinstein
used two different methods to estimate the incremental profits associated with the FaceTime feature.
First, he used the front-facing camera as a proxy for
the FaceTime feature, and calculated the profits that
he believed were attributable to the addition of the
front-facing camera to certain Apple products. And
second, he relied on customer surveys to assert that

120a
18% of iOS device sales would not have occurred but
for the inclusion of FaceTime, and determined the
profits attributable to those sales.
Having thus purported to determine those profits,
Weinstein then testified about how the parties would
split those incremental profits. To do this, he began
with the assumption that each party would take 50%
of the incremental profits, invoking the Nash Bargaining Solution, and then adjusted that split based
on “the relative bargaining power of the two entities.”
J.A. 1632.
Apple challenges both steps of Weinstein’s analysis. First, Apple insists that Weinstein did not adequately isolate the incremental profits attributable to
the patented technology under either approach. And
second, Apple argues that the invocation of a 50/50
starting point based on the Nash Bargaining Solution
is akin to the “25 per cent rule of thumb” that we rejected in Uniloc as being insufficiently grounded in
the specific facts of the case. Because we agree with
Apple on the second point, we need not reach the first.
In recent years, numerous district courts have
confronted experts’ invocations of the Nash Bargaining Solution as a model for reasonable royalty damages, with varying results. Compare Robocast, Inc. v.
Microsoft Corp., No. 10-1055, 2014 WL 350062 (D.
Del. Jan. 29, 2014) (excluding expert testimony based
on Nash Bargaining Solution because it was not sufficiently tied to the facts of the case); Dynetix Design
Solutions, Inc. v. Synopsys, Inc., No. 11-5973, 2013
WL 4538210, at *4-5 (N.D. Cal. Aug. 22, 2013) (excluding expert testimony on royalty rate that began

121a
from a starting point of a 50/50 split because the expert’s methodology was “indistinguishable from 25%
rule”); Oracle Am., Inc. v. Google Inc., 798 F. Supp. 2d
1111, 1119-21 (N.D. Cal. 2011) (excluding testimony
based on Nash Bargaining Solution because it “would
invite a miscarriage of justice by clothing a fifty-percent assumption in an impenetrable façade of mathematics”) with Mformation Techs., Inc. v. Research in
Motion Ltd., No. 08-4990, 2012 WL 1142537, at *3
n.19 (N.D. Cal. Mar. 29, 2012) (declining to exclude
Weinstein’s testimony based on Nash Bargaining Solution because he used it only “as a check” in addition
to the Georgia-Pacific analysis, rather than in lieu of
it); GenProbe Inc. v. Becton Dickinson & Co., No. 092319, 2012 WL 9335913, at *3 (S.D. Cal. Nov. 26,
2012) (permitting testimony based on Nash Bargaining Solution because calculation was sufficiently tied
to the facts of the case, “including the competitive environment and Gen-Probe’s policy of exploiting its
own patents”); Sanofi-Aventis Deutschland Gmbh v.
Glenmark Pharms. Inc., USA, No. 07-5855, 2011 WL
383861, at *12-13 (D.N.J. Feb. 3, 2011) (determining
that expert’s testimony asserting a 50/50 profit split
was based on the specific facts of the case); Amakua
Dev. LLC v. Warner, No. 05-3082, 2007 WL 2028186,
at *20 (N.D. Ill. July 10, 2007) (permitting reliance on
Nash because the “[d]efendants ha[d] not challenged
the reliability of Nash’s theories, and the assessment
of whether the theory persuasively can be applied in
the context of this case is for the jury”).
For the reasons that follow, we agree with the
courts that have rejected invocations of the Nash theorem without sufficiently establishing that the

122a
premises of the theorem actually apply to the facts of
the case at hand. The use here was just such an inappropriate “rule of thumb.”
Previously, damages experts often relied on the
“25 percent rule of thumb” in determining a reasonable royalty rate in a hypothetical negotiation. That
rule hypothesized that 25% of the value of the infringing product would remain with the patentee, while
the remaining 75% would go to the licensee. In Uniloc,
however, we held the “25 percent rule of thumb” to be
inadmissible “because it fails to tie a reasonable royalty base to the facts of the case at issue.” 632 F.3d at
1315. In so doing, we noted that the rule did not differentiate between different industries, technologies,
or parties. Id. at 1317. Rather, it assumed the same
25/75 royalty split regardless of the size of the patent
portfolio in question or the value of the patented technology. Id. The problem was that the 25% rule made
too crude a generalization about a vastly more complicated world.
The problem with Weinstein’s use of the Nash
Bargaining Solution, though somewhat different, is
related, and just as fatal to the soundness of the testimony. The Nash theorem arrives at a result that follows from a certain set of premises. It itself asserts
nothing about what situations in the real world fit
those premises. Anyone seeking to invoke the theorem as applicable to a particular situation must establish that fit, because the 50/50 profit-split result is
proven by the theorem only on those premises. Weinstein did not do so. This was an essential failing in
invoking the Solution. Moreover, we do not believe

123a
that the reliability of this methodology is saved by
Weinstein’s attempts to account for the unique facts
of the case in deviating from the 50/50 starting point.
As we noted in Uniloc:
It is of no moment that the 25 percent rule of
thumb is offered merely as a starting point to
which the Georgia-Pacific factors are then applied to bring the rate up or down. Beginning
from a fundamentally flawed premise and adjusting it based on legitimate considerations
specific to the facts of the case nevertheless
results in a fundamentally flawed conclusion.
632 F.3d at 1317. Indeed, Weinstein’s thin attempts
to explain his 10% deviation from the 50/50 baseline
in this case demonstrates how this methodology is
subject to abuse. His only testimony on the matter
was that although he “considered other splits,” he ultimately determined that a 10% deviation—resulting
in a 45/55 split—was appropriate “to reflect the fact
that Apple would have additional bargaining power
over VirnetX back in … 2009.” JA. 1708-09. Such conclusory assertions cannot form the basis of a jury’s
verdict. See Gen. Elec. Co. v. Joiner, 522 U.S. 136, 146
(1997) (noting that where an expert considers relevant material but fails to provide an opinion explaining how that material leads to his conclusion, “[a]
court may conclude that there is simply too great an
analytical gap between the data and the opinion proffered”).
More importantly, even if an expert could identify
all of the factors that would cause negotiating parties
to deviate from the 50/50 baseline in a particular case,

124a
the use of this methodology would nevertheless run
the significant risk of inappropriately skewing the
jury’s verdict. This same concern underlies our rule
that a patentee may not balance out an unreasonably
high royalty base simply by asserting a low enough
royalty rate. See Uniloc, 632 F.3d at 1320. Although
the result of that equation would be mathematically
sound if properly applied by the jury, there is concern
that the high royalty base would cause the jury to deviate upward from the proper outcome. Id. Thus, in
Uniloc, we noted that “[t]he disclosure that a company
has made $19 billion dollars in revenue from an infringing product cannot help but skew the damages
horizon for the jury, regardless of the contribution of
the patented component to this revenue.” Id. Similarly, here, the use of a 50/50 starting point—itself
unjustified by evidence about the particular facts—
provides a baseline from which juries might hesitate
to stray, even if the evidence supported a radically different split.
Even the 25% rule had its share of support in the
literature, which had observed that, at least as an anecdotal matter, a 25% royalty rate was a common
starting point—and not far off from a common end
point—of licensing negotiations across numerous industries. See Uniloc, 632 F.3d at 1313 (citing Robert
Goldscheider, John Jarosz and Carla Mulhern, Use of
the 25 Per Cent Rule in Valuing IP, 37 les Nouvelles
123, 132-33 (Dec. 2002); Stephen A. Degnan & Corwin
Horton, A Survey of Licensed Royalties, 32 les
Nouvelles 91, 95 (June 1997)). Nevertheless, we rejected it, insisting on testimony tied to the particular
facts. The same insistence is vital here.

125a
We note that the Nash Bargaining Solution does
offer at least one noticeable improvement over the
25% rule: where the 25% rule was applied to the entire profits associated with the allegedly infringing
product, the Nash theory focuses only on the incremental profits earned by the infringer from the use of
the asserted patents. But while we commend parties
for using a theory that more appropriately (and narrowly) defines the universe of profits to be split, the
suggestion that those profits be split on a 50/50 basis—even when adjusted to account for certain individual circumstances—is insufficiently tied to the
facts of the case, and cannot be supported.
For each of the reasons stated above, we vacate
the damages award and remand for further proceedings consistent with this opinion.
AFFIRMED-IN-PART, REVERSED-IN-PART,
VACATED-IN-PART and REMANDED
COSTS
Each party shall bear its own costs.

126a
APPENDIX D
NOTE: This order is nonprecedential.
United States Court of Appeals
for the Federal Circuit
_________________________

VIRNETX INC., LEIDOS, INC.,
Plaintiffs-Appellees
v.
CISCO SYSTEMS, INC.,
Defendant
APPLE INC.,
Defendant-Appellant
________________________
2018-1197
_________________________
Appeal from the United States District Court for
the
Eastern
District
of
Texas
in
No. 6:10-c-00417-RWS, Judge Robert Schroeder III.
_________________________
ON MOTION
_________________________
Before PROST, Chief Judge, MOORE and REYNA,
Circuit Judges.
PER CURIAM.

127a
ORDER
On August 7, 2019, Apple Inc. filed two motions.
The first moves for the court to vacate its August 1,
2019, order denying rehearing and for leave to file a
second combined petition for panel rehearing and rehearing en banc. The second moves for the court to
stay issuance of the mandate pending consideration
of the first motion, resolution of related proceedings,
or the Supreme Court’s consideration of Apple’s petition for a writ of certiorari. VirnetX Inc. and Leidos,
Inc. respond in opposition and Apple replies.
Upon consideration thereof,
IT IS ORDERED THAT:
The motions are denied.
FOR THE COURT
October 1, 2019
Date

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

128a
APPENDIX E
NOTE: This disposition is nonprecedential.
United States Court of Appeals
for the Federal Circuit
VIRNETX INC., LEIDOS, INC.,
Plaintiffs-Appellees
v.
CISCO SYSTEMS, INC.,
Defendant
APPLE INC.,
Defendant-Appellant
2018-1197
Appeal from the United States District Court for
the Eastern District of Texas in No. 6:10-cv-00417RWS, Judge Robert Schroeder, III.
ON PETITION FOR PANEL REHEARING AND
REHEARING EN BANC

129a
Before PROST, Chief Judge, NEWMAN, LOURIE,
DYK, MOORE, O’MALLEY, REYNA, WALLACH, TARANTO,
CHEN, and HUGHES, Circuit Judges1.
PER CURIAM.
ORDER
Appellant Apple Inc. filed a combined petition for
panel rehearing and rehearing en banc. A response to
the petition was invited by the court and filed by Appellees Leidos, Inc. and VirnetX Inc. The petition was
referred to the panel that heard the appeal, and thereafter the petition for rehearing en banc was referred
to the circuit judges who are in regular active service.
Upon consideration thereof,
IT IS ORDERED THAT:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on August 8,
2019.
FOR THE COURT
August 1, 2019
Date

1

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

Circuit Judge Stoll did not participate.

130a
APPENDIX F
35 U.S.C. § 316 (2006)
§ 316 Certificate of Patentability,
Unpatentability, and Claim Cancellation
(a) In general.—In an inter partes reexamination proceeding under this chapter, when the time for appeal
has expired or any appeal proceeding has terminated,
the Director shall issue and publish a certificate canceling any claim of the patent finally determined to be
unpatentable, confirming any claim of the patent determined to be patentable, and incorporating in the
patent any proposed amended or new claim determined to be patentable.
(b) Amended or new claim.—Any proposed amended
or new claim determined to be patentable and incorporated into a patent following an inter partes reexamination proceeding shall have the same effect as
that specified in section 252 of this title for reissued
patents on the right of any person who made, purchased, or used within the United States, or imported
into the United States, anything patented by such
proposed amended or new claim, or who made substantial preparation therefor, prior to issuance of a
certificate under the provisions of subsection (a) of
this section.

